<html>
<title> - THE BP OIL SPILL: ACCOUNTING FOR THE SPILLED OIL AND ENSURING THE SAFETY OF SEAFOOD FROM THE GULF</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





   THE BP OIL SPILL: ACCOUNTING FOR THE SPILLED OIL AND ENSURING THE 
                    SAFETY OF SEAFOOD FROM THE GULF

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 19, 2010

                               __________

                           Serial No. 111-152





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-129                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina     PARKER GRIFFITH, Alabama
CHARLIE MELANCON, Louisiana          ROBERT E. LATTA, Ohio
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                 Subcommittee on Energy and Environment

               EDWARD J. MARKEY, Massachusetts, Chairman
MICHAEL F. DOYLE, Pennsylvania       RALPH M. HALL, Texas
JAY INSLEE, Washington               FRED UPTON, Michigan
G.K. BUTTERFIELD, North Carolina     ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana          JOHN SHIMKUS, Illinois
BARON P. HILL, Indiana               JOHN B. SHADEGG, Arizona
DORIS O. MATSUI, California          STEVE BUYER, Indiana
JERRY McNERNEY, California           GREG WALDEN, Oregon
PETER WELCH, Vermont                 SUE WILKINS MYRICK, North Carolina
JOHN D. DINGELL, Michigan            JOHN SULLIVAN, Oklahoma
RICK BOUCHER, Virginia               MICHAEL C. BURGESS, Texas
FRANK PALLONE, Jr., New Jersey
ELIOT ENGEL, New York
GENE GREEN, Texas
LOIS CAPPS, California
JANE HARMAN, California
CHARLES A. GONZALEZ, Texas
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
JIM MATHESON, Utah
JOHN BARROW, Georgia
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachussetts, opening statement..............     1

                               Witnesses

Bill Lehr, Senior Scientist, Office of Response and Restoration, 
  National Oceanic and Atmospheric Administration................     3
    Prepared statement...........................................     5
Donald Kraemer, Acting Deputy Director, Center for Food Safety 
  and Applied Nutrition, Food and Drug Administration; 
  Accompanied by Vicki Seyfert-Margolis, Senior Advisor to the 
  Chief Scientist, FDA's Office of the Commissioner..............    15
    Prepared statement...........................................    18
Paul Anastas, Assistant Administrator, Office of Research and 
  Development, Environmental Protection Agency...................    30
    Prepared statement...........................................    32
Ian MacDonald, Professor, Department of Oceanography, Florida 
  State University...............................................    66
    Prepared statement...........................................    68
Dean Blanchard, President, Dean Blanchard Seafood, Inc...........    75
    Prepared statement...........................................    77
Acy Cooper, Jr., Vice President, Louisiana Seafood Association...    78
    Prepared statement...........................................    80
Mike Voisin, Chief Executive Officer, Motivatit Seafood, LLC.....    82
    Prepared statement...........................................    85
Lisa Suatoni, Senior Scientist, Oceans Program, Natural Resources 
  Defense Council................................................    88
    Prepared statement...........................................    91

 
   THE BP OIL SPILL: ACCOUNTING FOR THE SPILLED OIL AND ENSURING THE 
                    SAFETY OF SEAFOOD FROM THE GULF

                       THURSDAY, AUGUST 19, 2010

                  House of Representatives,
            Subcommittee on Energy and Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:39 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Edward 
Markey [Chairman of the Subcommittee] presiding.
    Member present: Representative Markey.
    Staff present: Bruce Wolpe, Senior Advisor; Melissa 
Cheatham, Professional Staff Member; Caitlin Haberman, Special 
Assistant; Lindsay Vidal, Special Assistant; Jen Berenholz, 
Deputy Clerk; Andrea Spring, Minority Professional Staff; Mary 
Neumayr, Minority Counsel; Garrett Golding, Minority 
Legislative Analyst; and Lyn Walker.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Welcome to the Subcommittee on Energy and 
Environment.
    For anyone who has been diagnosed with a life-threatening 
illness, one of the best words you can hear is ``remission,'' 
whether it is cancer, HIV or some other illness. A battery of 
modern cures can reduce the disease to lower, perhaps even to 
undetectable levels. Yet even in remission, there is often 
unease that the disease could return and the pestering 
inevitable scientific and metaphysical questions arise: Where 
did it go? Could it come back?
    Right now, we are in a similar state in this environmental 
disaster. After many trials and several false starts, BP 
finally created a system to cap and seal the well. Oil has not 
come from the Macondo well for about a month. We are no longer 
at the bleeding stage. A tourniquet has been applied to the 
well, and now we are told we may need to wait for the final 
procedure, the relief well, until September.
    And so just like a patient in remission, we have reached a 
more stable stage of health with this bill. To say the well is 
capped is tantamount to a cure would be false confidence. Like 
unseen internal bleeding in a trauma patient, the veiled oil 
persisting in the Gulf poses continued risks. Today, we are 
here to ask the same questions about this spill as a patient or 
a doctor would of a disease: Where did it go, and could it come 
back?
    According to the most recent estimates, 4.9 million barrels 
of oil spewed from BP's well over the course of this 100-day 
gusher. Of that oil, some was captured, some was dispersed and 
some evaporated or naturally dispersed. Yet, at least 1.3 
million barrels still remain unaccounted for in the waters and 
marshes of the Gulf, an amount five times larger than was 
spilled during the entire Exxon Valdez disaster.
    Just as we are worried about rogue weapons sold on the 
black market harming the public, we must be vigilant about 
rogue oil from this disaster harming the public, putting a 
black mark on Gulf seafood or Gulf tourism.
    In addition to all the oil, millions of gallons of 
dispersant chemicals have been used in unprecedented ways. Just 
a few weeks ago, FDA told me that they had determined that 
dispersants have a low potential to accumulate in seafood and 
do not pose a significant public health risk through human 
consumption. While this news is welcome, it addresses only the 
issue of short-term toxicity. The FDA knows little about the 
long-term impacts that these compounds will have on marine 
life, nor do they know how the presence of oil and dispersants 
may influence the concentration of other toxic compounds in 
seafood species.
    We have yet to see the full picture of hazards posed by 
this spill. The work done by the FDA, NOAA and EPA will be 
critical in ensuring that fish and shellfish from the Gulf is 
safe to eat for years to come.
    And so we will ask today: where do we go from here? Where 
should monitoring and cleanup efforts be focused in this new 
chapter of recovery and restoration? Are the clouds of oil 
suspended below the ocean's surface still a concern? What about 
the plumes of methane gas? Where have these plumes gone and 
will microbes consuming methane use up oxygen in the water, 
potentially asphyxiating areas of the Gulf? What impact will 
all the oil, methane and the chemical dispersants have on 
marine life in the Gulf and on Gulf seafood supply in the years 
ahead? Is seafood from the Gulf safe to eat today? Will it be 
safe to eat in the future? American families want the only oil 
in their seafood to be cooking oil.
    Ending BP's gusher in the Gulf does not, by itself, cure 
the harm that has been done. The treatment of the region from 
this disaster has only just begun.
    To have a successful, continued response to this spill, we 
need to do three things going forward: One: monitor the health 
of the waters, wetlands, wildlife and people of the Gulf. Two: 
maintain the pressure on BP and others to continue the recovery 
and restoration process. And three: muster the attention of our 
entire country on solving the economic and environmental 
challenges from our continued dependence on oil, especially 
foreign oil.
    We have an extremely distinguished group of witnesses 
appearing before us today. We appreciate the fact that it is 
the middle of the summer. We know that many people have gone 
away. However, the oil has not gone away, and it is important 
for the Gulf of Mexico residents to know that the attention on 
this issue has not gone away. That is why we are having this 
hearing today.
    So let us turn to our first witness, Dr. Bill Lehr. He is a 
Senior Scientist in the Emergency Response Division of NOAA, 
where he leads the spill response group. He has been active in 
spill research and response for more than 15 years. We thank 
you, Dr. Lehr, for being here. Whenever you feel comfortable, 
please begin.

 STATEMENTS OF BILL LEHR, SENIOR SCIENTIST, OFFICE OF RESPONSE 
       AND RESTORATION, NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION; DONALD KRAEMER, ACTING DEPUTY DIRECTOR, CENTER 
     FOR FOOD SAFETY AND APPLIED NUTRITION, FOOD AND DRUG 
 ADMINISTRATION, ACCOMPANIED BY VICKI SEYFERT-MARGOLIS, SENIOR 
      ADVISOR TO THE CHIEF SCIENTIST, FDA'S OFFICE OF THE 
COMMISSIONER; AND PAUL ANASTAS, ASSISTANT ADMINISTRATOR, OFFICE 
  OF RESEARCH AND DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

                     STATEMENT OF BILL LEHR

    Mr. Lehr. Thank you, Chairman Markey and members of the 
subcommittee for this----
    Mr. Markey. Could you turn on your mic?
    Mr. Lehr. It should be on. There we go.
    Mr. Markey. Thank you.
    Mr. Lehr. Thank you again, Chairman Markey and members of 
the subcommittee, for the opportunity to testify here for the 
National Oceanic and Atmospheric Administration's role in the 
recent Deepwater Horizon oil spill response. I would like to 
discuss the critical roles that NOAA services during oil spills 
and their importance to their contributions to protect and 
restore natural resources, communities and economies affected 
by this recent terrible event in the Gulf of Mexico.
    NOAA's scientific experts have been assisting with response 
from the first day both on scene and through our headquarters 
and regional offices. NOAA's support has included daily 
trajectories of the spilled oil, weather data for short- and 
long-term forecasts, special forecasts for cleanup operations 
such as the in situ burning. NOAA experts analyze the satellite 
imagery and also perform real-time observations to help verify 
the spill location and movement. In addition, NOAA scientists 
are providing expertise and assistance regarding sea turtles, 
marine mammals and other protected resources such as corals. 
NOAA is also coordinating with the federal and States co-
trustees and responsible parties to conduct natural resource 
damage assessment which is a process that quantifies the total 
losses and develops restoration projects that compensate the 
public for their losses.
    NOAA has also participated in a number of interagency 
expert teams. These include the Flow Rate Technical Group that 
estimated the size of the spill that you referred to, and also 
a joint effort with NOAA, the Department of Interior, the Coast 
Guard, the National Institute of Standards and Technology and 
other outside experts to develop an oil budget calculator to 
estimate for response purposes the fate of the spilled oil.
    Now, there has been a lot of discussion on this budget, so 
let me get into a little detail on it. Basically, according to 
what our experts were able to determine, the oil that was 
spilled could be divided up into four basic categories. About 
one-quarter of it was either recovered directly, was burned in 
situ or was skimmed on the surface. Another quarter either 
evaporated or dissolved into the water column, and another 
quarter, as you mentioned before several times, the size of the 
Exxon Valdez remains out there for cleanup purposes, and then 
another quarter was dispersed into the water column.
    Now, part of that was through natural dispersion and other 
was through the use of dispersants. Dispersants for the 
Deepwater Horizon spill were only used where oil was present on 
the surface or they were applied at the wellhead on the sea 
floor. A total of 1.8 million gallons of dispersants were used. 
The effects of the dispersants are being monitored by NOAA, 
also the dispersed oil. There are over 2,000 water samples that 
have been collected in the deep waters of the Gulf. As well as 
analyzing for oil, they have also analyzed for components of 
the dispersants and thus far only one dispersant component, 
propylene glycol, was detected in a sample that was close to 
the wellhead.
    In addition, EPA is monitoring surface water samples for 
the presence of dispersant components near the shoreline, and 
my colleague from EPA can discuss that.
    Finally, to ensure the safety of fishermen and consumers, 
NOAA prohibited commercial and recreational fishing in certain 
areas of the Gulf of Mexico because of the spill. Now that the 
wellhead is capped and new oil is no longer flowing in the 
Gulf, NOAA scientists are going back into the spill area taking 
seafood samples to determine which areas are safe for fishing. 
An area is only reopened to fishing if visible oil is no longer 
present in the area and only after the seafood passes rigorous 
sensory and chemical testing. To date, every seafood sample 
from reopened waters or outside the closed area has passed 
sensory and chemical testing for contamination of oil 
dispersant. No unsafe levels of contamination of the seafood 
have been found. NOAA has begun to reopen portions of the 
closed area but only after being assured that the fish products 
within the closed area meet the Food and Drug Administration's 
standards for public health and wholesomeness.
    To conclude, the attention at this point is focused on 
evaluating fisheries for reopening, shoreline cleanup, 
monitoring of subsurface oil both near shore and in deepwater, 
and conducting natural resource damage assessments with our co-
trustees.
    Thank you for allowing me to testify today, and I am happy 
to answer any questions that you may have.
    [The prepared statement of Mr. Lehr follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Markey. Thank you very much.
    Our next witness is Mr. Donald Kraemer. He is the Deputy 
Director of the Office of Food Safety at the U.S. Food and Drug 
Administration, where he is responsible for the administration 
of the FDA's seafood policy. He has been with the FDA since 
1977. You may proceed, Mr. Kraemer.

                  STATEMENT OF DONALD KRAEMER

    Mr. Kraemer. Good afternoon, Chairman Markey and members of 
the subcommittee. I am Donald Kraemer, Acting Deputy Director 
of the Center for Food Safety and Applied Nutrition at the U.S. 
Food and Drug Administration. With me is Dr. Vicki Seyfert-
Margolis, Senior Advisor to the Chief Scientist at FDA's Office 
of the Commissioner. We appreciate the opportunity to discuss 
FDA's role in ensuring the safety of seafood harvested from the 
Gulf of Mexico in the wake of the Deepwater Horizon oil spill.
    FDA is an active and integral part of the federal 
government's comprehensive, coordinated, multi-agency program 
to ensure that seafood from the Gulf of Mexico is free from 
contamination as a result of the oil spill. This program is 
important not only for consumers who need to know that food is 
safe but also for the fisheries industry, which needs to be 
able to sell its product with confidence. FDA is working 
closely with the National Oceanic and Atmospheric 
Administration, the Environmental Protection Agency, other 
federal agencies and state authorities in the Gulf region. I 
would like to note the high level of cooperation that FDA has 
experienced among these agencies both at the leadership and 
among the technical and scientific staffs that carry out the 
research, testing and analysis needed to fulfill our respective 
missions.
    The federal government is taking a multi-pronged approach 
to ensure that marketed seafood from the Gulf of Mexico is not 
contaminated as a result of the oil spill. These measures 
include the precautionary closure of fisheries, the 
surveillance and testing of seafood products and a heightened 
emphasis on FDA's Hazard Analysis and Critical Control Point, 
or HACCP, regulations. Beyond our ongoing work to ensure that 
currently marketed seafood is safe, FDA in conjunction with 
NOAA and the Gulf States have developed a strict protocol for 
reopening closed fisheries in a manner that will ensure the 
safety of seafood from these previously closed areas. We are 
also planning for additional research into potential hazards to 
the food supply presented by crude oil and dispersant 
chemicals.
    The primary preventative controls for protecting the public 
from potentially contaminated seafood is the closure of fishing 
areas that have been or are likely to be affected by the oil 
spill. Immediately after the oil spill, FDA worked with NOAA 
and the States to ensure that the appropriate closures were put 
in place. These closures are enforced by federal and State 
wildlife officials as well as the U.S. Coast Guard.
    The second element of our approach is a heightened emphasis 
on FDA's longstanding HACCP program for seafood in which 
processors are obligated to identify hazards that are 
reasonably likely to occur and institute preventive controls to 
address them. The framework of our seafood HACCP program is 
proving its value in the context of this extraordinary public 
health challenge. Over the past several weeks, FDA has 
conducted more than 300 inspections of seafood processors in 
the Gulf region to verify that they are implementing controls 
to ensure that they receive fish harvested only from waters in 
which fishing is permitted.
    The third element is a verification that the other controls 
are working properly. This is the analysis of a variety of 
seafood samples that have been commercially harvested from Gulf 
waters. We are testing for polycyclic aromatic hydrocarbons, or 
PAH, the primary contaminants of concern in oil. FDA has so far 
tested for PAH in about 500 animals comprising a variety of 
seafood including shrimp, crab and oysters from open State 
waters. The results of all samples have shown PAH levels well 
below the levels of concern, usually by a factor of 100 to 
1,000, essentially the same levels as were seen before the oil 
spill.
    With respect to the reopening of closed waters, FDA, NOAA 
and EPA worked in close cooperation with agencies in the five 
Gulf States to establish a single agreed-upon protocol for 
reopening to ensure the safety of seafood harvested from these 
waters. Under the protocol, waters impacted by oil will not 
reopen until, one, all oil from the spill is no longer present 
in quantities or forms that could contaminate seafood; two, a 
scientifically valid sampling plan is agreed upon; and three, 
all samples from the area successfully pass both sensory and 
chemical analysis to ensure that they contain no harmful oil 
residues.
    In our sensory analyses, expert examiners check the odor 
and appearance of raw seafood and the taste and odor of cooked 
seafood. Samples that pass sensory testing are sent for 
chemical analysis for oil which allows scientists to 
conclusively determine whether PAH contaminants are present in 
the fish or shellfish tissue that could be consumed. To date, 
all samples have passed sensory testing for oil or dispersants 
and the results of all chemical analyses have shown PAH levels 
to be well below the levels of concern, again by a factor of 
100 to 1,000. To date, Alabama, Louisiana, Florida and 
Mississippi have reopened some portions of their coastal waters 
to recreational and commercial fishing with concurrence from 
FDA that the criteria under the joint reopening protocol have 
been met. Additional reopenings are likely in the coming weeks.
    Finally, with respect to the impact of dispersants used in 
the Gulf on seafood safety, the current science indicates a low 
risk that these dispersants will bioconcentrate in seafood and 
they are therefore unlikely to present a food safety concern. 
Further, NOAA and EPA data confirm that dispersants are not 
present at detectable levels in the overwhelming number of 
water samples taken. However, out of an abundance of caution 
and in order to gather additional information, NOAA and FDA are 
conducting additional studies to reaffirm that dispersants do 
not accumulate in tissues of fish and shellfish. FDA will 
continue to study the long-term impacts of chemical dispersants 
on seafood safety and we will take any new relevant information 
into account and adjust our protocols accordingly.
    I see that I have exceeded my time, so I will forego my 
concluding comments.
    Mr. Markey. You may continue, sir.
    Mr. Kraemer. Thank you.
    Then to conclude, Mr. Chairman, the safety of consumers is 
FDA's highest priority and a responsibility we take very 
seriously. In close coordination with federal and State 
agencies, we have been proactive in monitoring this disaster, 
planning for its impacts and mobilizing our personnel and 
facilities to take the steps needed to ensure safe food supply. 
The protocols and approaches we have implemented are protecting 
American consumers while minimizing the negative impact on Gulf 
seafood processors.
    Thank you for the opportunity to discuss these important 
issues, and I look forward to answering your questions. Thank 
you.
    [The prepared statement of Mr. Kraemer follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Markey. Thank you, Mr. Kraemer, very much.
    Our next witness is Dr. Paul Anastas. Dr. Anastas is the 
Assistant Administrator for EPA's Office of Research and 
Development and the EPA Science Advisory. He has conducted 
groundbreaking research on the design, manufacture and use of 
environmentally friendly chemicals. We welcome you, Doctor. 
Whenever you feel comfortable, please begin.

                   STATEMENT OF PAUL ANASTAS

    Mr. Anastas. Thank you, Chairman Markey. I appreciate the 
opportunity here to testify on the important issue of 
dispersants and their use in the BP Deepwater Horizon crisis.
    We have now passed day 120 of the BP oil spill tragedy, a 
tragedy that resulted in loss of life, livelihoods, and put the 
Gulf Coast ecosystem in peril. We are relieved that the well is 
currently sealed and that dispersant use has been reduced to 
zero. We hope and expect that this will continue to be the 
case.
    As the President has said, this tragedy does not end with 
the sealing of the well. The President and EPA are committed to 
the long-term recovery and the restoration of the Gulf Coast, 
one of our most precious ecosystems. In addition to its other 
responsibilities with oil spill response, EPA continues to 
rigorously monitor the air, water and sediments for the 
presence of dispersants and crude oil components that could 
have an impact on health or the environment. These data are 
posted on EPA's Web site and are publicly available.
    EPA has a role in the use of dispersants, which are 
chemicals that are applied to the oil to break it down into 
small particles. The dispersed oil mixes with the water column 
and is diluted and degraded by bacteria and other microscopic 
bacteria. Specifically, EPA is responsible for managing the 
product schedule of dispersants available in the oil spill 
response.
    The decision to use dispersants as part of a larger oil 
spill response is not one that EPA took lightly. When 
considering dispersant use, we are faced with environmental 
tradeoffs. The potential long-term effects on aquatic life are 
still largely unknown, and BP has used over 1.8 million gallons 
of dispersant in a volume never before used in the United 
States, but because of our aggressive and constant monitoring, 
what we do know right now is this: our monitoring data 
overwhelmingly confirm modeling results that dispersants are 
not present at levels of detection per our method. For the rare 
anomaly, we investigate to either confirm or disprove the 
validity of a detection. To put this in context, of the more 
than 2,000 NOAA-generated samples and the nearly 1,000 EPA-
generated samples, there have been only two detections above 
the method detection limit. These were immediately 
investigated, and our monitoring continues. Our monitoring 
results also show that oxygen in the water is not being 
depleted to dangerous levels.
    Now, given the unprecedented nature of the spill, the EPA 
directed BP to identify less-toxic alternative dispersants. 
When the company failed to provide this information, EPA 
decided to conduct this testing independently in a rigorous, 
peer-reviewed manner. Specifically, EPA conducted acute 
toxicity tests to determine lethal concentrations of eight 
available dispersants. First, we tested each of the eight 
dispersants alone. Then we tested the Louisiana sweet crude oil 
alone. And finally, we tested mixtures of the oil with each of 
these eight dispersants. These standard tests screen species 
called mysid shrimp and silverside fish to determine the 
relative hazard of each of the dispersants. These two species 
are widely considered to be representative of those found in 
the Gulf and were tested during a juvenile life stage when 
organisms are most sensitive to pollutant stress. The tests 
were conducted over a range of concentrations including those 
much greater than what aquatic life is generally expected to 
encounter in the Gulf.
    EPA's testing delivered three important results. One, all 
of the eight dispersants when tested alone could be categorized 
as slightly toxic to practically nontoxic. Two, the oil alone 
was generally moderately toxic. Three, mixtures of oil and each 
of the eight dispersants were no more toxic than the oil alone 
in these tests. All of these results indicate that the eight 
dispersants tested possess roughly the similar acute 
toxicities.
    While these data are important, I want to emphasize that 
continued monitoring is absolutely necessary. EPA has directed 
BP to monitor for indicators of environmental stress like 
decreased oxygen levels and increased toxicity to small 
organisms called rotifers. To date, we have not seen dissolved 
oxygen levels approach levels of concern to aquatic life. We 
have also seen no excessive mortality in rotifers. While more 
work needs to be done, we see that the dispersants have worked 
to help keep oil off of our precious shorelines and away from 
sensitive coastal ecosystems.
    The crisis has made it evident, that additional research is 
needed. Congress has recently appropriated EPA $2 million to 
begin a long-term study on the impacts of dispersants. These 
funds will support research on the short- and long-term 
environmental and human health impacts associated with the oil 
spill and dispersant use. We will also further our research 
efforts to include innovative approaches to spill remediation 
and to address the mechanisms of environmental fate, transport 
and effects of the dispersants. EPA will continue to take 
science-based approaches to dispersant use. We will continue 
monitoring, identifying and responding to public health and 
environmental concerns. In coordination with our federal, State 
and local partners, EPA is committed to protecting Gulf Coast 
communities from the adverse environmental effects of the 
Deepwater Horizon oil spill.
    In conclusion, we will persist in asking the hard questions 
until we more fully understand the long-term effects of the BP 
oil spill and conduct the investigations required to enable the 
Gulf's long-term recovery. EPA is fully committed to working 
with the people of the Gulf, our federal partners, the 
scientific community and NGOs toward the recovery of the Gulf 
of Mexico and the restoration of its precious ecosystem.
    At this time I welcome any questions.
    [The prepared statement of Mr. Anastas follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Markey. Thank you, Dr. Anastas, very much.
    The Chair will now recognize himself for a period of asking 
questions.
    Dr. Lehr, intended or not, I think the reaction to the oil 
budget report that was released last week is one of relief. 
People want to believe that everything is OK, and I think this 
report and the way it is being discussed is giving many people 
a false sense of confidence regarding the state of the Gulf. 
Overconfidence breeds complacency and complacency is what got 
us into this situation in the first place. Dr. Lehr, how much 
oil was actually discharged into the Gulf?
    Mr. Lehr. By the best estimates of the combined efforts of 
the FRTG plus the Department of Energy National Laboratories, 
the best estimate to date would be 4.1 million barrels plus or 
minus 10 percent.
    Mr. Markey. So it would be 4.1 million barrels discharged?
    Mr. Lehr. That were actually discharged into the 
environment. There was 800,000 barrels that was released from 
the wellhead but was captured directly and pumped up above.
    Mr. Markey. So is the 800,000 included in the oil budget 
baseline?
    Mr. Lehr. The oil budget baseline follows closely the form 
that is established by the Incident Command System Situation 
Unit for preparing categories of where to record the oil, and 
for the purpose of response, that would be the standard 
procedure, so we follow the standard procedure, and yes, that 
is included in that budget for response.
    Mr. Markey. But that oil went directly into ships on the--
--
    Mr. Lehr. That is correct.
    Mr. Markey [continuing]. Surface and never was in the water 
at all. Is that correct?
    Mr. Lehr. That is correct.
    Mr. Markey. The 800,000 barrels. So there were 4.1 million 
barrels that were actually discharged into the water?
    Mr. Lehr. That is correct.
    Mr. Markey. Now, out of the 4.1 million barrels discharged, 
how many barrels are still in the Gulf or on its shores in some 
form?
    Mr. Lehr. Probably about three-fourths would still be, 
roughly, I would say. To go through the calculations that we 
have, the only oil that you would say that is actually removed 
from the environment would be that 800,000 plus the amount that 
was burned. The stuff that evaporated into the atmosphere is 
still in the environment, the stuff that is dissolved into the 
water column, the amount that dispersed into the water column 
as droplets plus the amount that was on the sheen on the 
surface or in small tar balls, so in that case, I would say 
most of that is still in the environment. It is not available 
for response, which was the purpose of the oil budget numbers. 
You cannot do any recovery operation on oil that is evaporated 
or is dissolved into the water column.
    Mr. Markey. So even according to the calculations of the 
oil budget, the report that was released last week, between 60 
and 90 percent of the discharged oil, that is, the oil that 
actually went into the ocean, remains in the Gulf of Mexico, 
and that would be between 2.45 and 3.675 million barrels. Is 
that accurate?
    Mr. Lehr. I would have to do the calculations here in my 
head, but when you were including your numbers there, I mean, 
the oil that evaporated, which was a substantial amount, 
whether it is still in the Gulf of Mexico, I don't know. You 
would have to look at how it was transported by the wind. So I 
think you would want to stick with just the amount that would 
be in the water column or on the shoreline, and that would be 
the amount that we estimated as being naturally dispersed or 
chemically dispersed, and the amounts that are on the 
shoreline. Now, some of that has been recovered on the 
shoreline as well and the amount that has been dispersed is 
biodegrading. We still are working to determine the rate. So 
again, the numbers that we put in the budget calculator for 
response purposes, to answer the question about what is the 
fate of it in the long term, that is a different question. That 
is for the damage assessment.
    Mr. Markey. Dr. Lehr, I am interested in understanding how 
BP has performed in terms of removing spilled oil from the Gulf 
before it hits land. What percentage of the oil that was 
spilled into the Gulf was actually removed from the ocean? I am 
talking about burning and skimming and actually removing the 
oil from the ecosystem. That is, of the----
    Mr. Lehr. Of course, you want----
    Mr. Markey. Let me say it. Of the 4.1 million barrels of 
oil that actually went into the ocean, what percent was removed 
by BP?
    Mr. Lehr. I would have to redo these calculations since 
these were based on the 4.9 million as opposed to----
    Mr. Markey. But----
    Mr. Lehr. Are you talking about----
    Mr. Markey. Actually the only issue I think that the 
American people are concerned about is the 4.1 million barrels 
that actually went into the ocean, so it is important for us to 
discuss that issue and separate it from the oil that just went 
directly into the ships and never was in the ocean at all, 
because that is where the concern is, and people should have a 
very good understanding of what percentage of that oil has been 
removed thus far. So do you have a number or----
    Mr. Lehr. You would have to take the ratio of 4.9 divided 
by 4.1 and then multiply that by these fractions that we have 
down here for----
    Mr. Markey. So if you could use your own chart, Dr. Lehr, 
and break that down in a way that could help us to understand 
of the 4.1 million barrels, how much BP did----
    Mr. Lehr. So if you take the 5 percent that was burned and 
multiply that by the ratio of 4.9 to 4.1, and I must admit, in 
the era of pocket calculators, I can't do that math in my head. 
And then if you take the amount that was skimmed, 3 percent, 
and multiply that by 4.9, by 4.1----
    Mr. Markey. Now, are you using 4.9 or 4.1 as you are doing 
this?
    Mr. Lehr. No, you asked me to use it with the new ratio.
    Mr. Markey. OK, 4.1.
    Mr. Lehr. Then I have to multiply those numbers by that 
ratio. I could get a calculator and see what that ratio is.
    Mr. Markey. Do you have assistants here with you? Has 
anyone accompanied you here this morning, Dr. Lehr? Could one 
of your assistants do that?
    Mr. Lehr. I have got a calculator here. I need to multiply 
by 1.2 times each of those percentages, so roughly the burn 
would then roughly be 6 percent, and the skimmed would be 4 
percent, roughly.
    Mr. Markey. So between the skimming and the burning, 10 
percent of the 4.1 million barrels would have been removed from 
the ocean, leaving 90 percent unaccounted for?
    Mr. Lehr. Well, there would also be whatever was recovered 
on the shoreline, which we didn't----
    Mr. Markey. No, that is what I am saying. In the arithmetic 
we are doing right now, so the burning is 6 percent, the 
skimming is 4 percent?
    Mr. Lehr. Right.
    Mr. Markey. So let us continue then with the arithmetic. 
What else----
    Mr. Lehr. OK. So then you had whatever was captured in the 
residual, and we have not quantified that quantity and how much 
of that as they do the beach recovery and so on. So I can't 
give you the numbers on that. We were again looking at it for 
response purposes.
    Mr. Markey. So again, let us recapitulate here for a 
second. Six percent was burned, 4 percent skimmed, and an 
unknown amount was collected on the beaches. Is that correct?
    Mr. Lehr. Right.
    Mr. Markey. And can you tell us the reason that has not 
been calculated yet?
    Mr. Lehr. It was mixed in with--you know, you don't pick up 
just oil on the beaches. You pick up oil and debris and there 
is a question of trying to separate that out. It is not a 
simple process.
    Mr. Markey. Has there been even a range that has been put 
together in terms of some estimate of how much oil that might 
represent?
    Mr. Lehr. There may have been. I am not aware. But I could 
get back to you and get that answer to you.
    Mr. Markey. Well, in the wake of the Exxon Valdez spill in 
1989, both the Government Accountability Office and the Office 
of Technology Assessment published reports looking at the 
capacity to recover oil after a major spill. They found that 
given technologies available at that time, we could really only 
recover 10 to 15 percent of the spilled oil. So it seems to me 
that BP's oil recovery effort comes in on the low effort of 
what was achievable 21 years ago. You seem to have come in at 
the number of approximately 10 percent plus whatever was on the 
beaches, but still within that range of 10 to 15 percent that 
was determined to be recoverable after the Exxon Valdez spill. 
Would you agree with that?
    Mr. Lehr. Yes. I mean, in terms of the actual oil on those 
categories. Now, there was of course in this case the unusual 
event of a large amount of natural dispersion and the addition 
of large amounts, a record amount, as far as I'm aware, of 
chemical dispersants, and that is considered a type of 
response. So one would have to say, how do you weigh that, so--
--
    Mr. Markey. I understand, but I am just----
    Mr. Lehr. In terms of the standard mechanical and, you 
know, burn operations, beach recovery, I would say yes, this 
was about average for what we have seen from major spills.
    Mr. Markey. I am just trying, if I could, Doctor, I am just 
trying to divide the question so that the public can understand 
what it is that we are talking about. So in terms of just 
recoverable oil, it is somewhere in the range of 10 percent?
    Mr. Lehr. And in my mind, that is not a passing grade, only 
10 percent of 4.1 million barrels actually having been 
recovered. I think we all saw this coming, and with all of BP's 
talk about using golf balls, nylons and hair to clean up the 
spilled oil, I think it is important that even using a 21-year-
old grading system that BP has done a very poor job in cleaning 
up the Gulf.
    So Dr. Lehr, throughout the entire BP saga, I have pushed 
for BP and the Unified Command to make this process as 
transparent as possible. The way I see it, the more people we 
have independently analyzing and verifying the data and 
information associated with the spill, the better and more 
informed our response decisions will be.
    With regard to the oil budget, is this something NOAA does 
as part of the operational response to a major oil spill?
    Mr. Lehr. The oil budget is a traditional part of a 
response. As I mentioned before, there's a special form that's 
filled out as part of the situation unit in the Incident 
Command System. The standard procedures for that use, amongst 
other things, a model that was developed by NOAA but also they 
used some other techniques such as observers estimating the 
size of the spill. In the case of this spill, because it was so 
large, because it went on for so long and in particular because 
it was occurring at a mile underneath the water surface, it was 
necessary to develop the special tool, which is what we did 
with the budget calculator. Now, I have noticed in the press 
that this is called the NOAA budget calculator. I would like to 
receive credit for that but one thing in science that you have 
to do is to recognize the contributions of other, and so this 
really was a joint effort of both government agencies and the 
outside experts in the field to develop this tool.
    Mr. Markey. Now, Doctor, is there an established 
methodology for making the oil budget calculations?
    Mr. Lehr. There is a standard form that you would calculate 
to divide the budget into, but in terms--and there is a normal 
procedure that we had to modify because of the circumstances 
for the spill.
    Mr. Markey. In the case of the Deepwater Horizon spill, how 
long has NOAA been calculating an oil budget to guide the 
response efforts from the Unified Command?
    Mr. Lehr. In terms of the Incident Command, we started 
working I believe in either June, starting to work on the 
development of the tool, and were providing guidance for some 
time in July for the Incident Command.
    Mr. Markey. So has NOAA been using the established 
methodology for calculating an oil budget in this case?
    Mr. Lehr. I am going to have to ask for clarification, what 
you mean by--we did use the standard procedures for estimating 
oil for each of the techniques based on methods that had been 
used in the past but were modified. Let me give you an example. 
In calculating dispersion, natural dispersion, this is based on 
looking at something called the energy dissipation rate that is 
due to breaking waves. Now, we of course obviously in the case 
here, we had a plume that was subsurface. We didn't have 
breaking waves but we did have an energy dissipation rate and 
we had to then employ some of the experts that worked on the 
FRTG to help us calculate that energy dissipation rate so we 
could get a new estimate for natural dispersion.
    In the case of evaporation, we have some standard models 
for estimating the evaporation of Louisiana sweet crude. It is 
in our oil library database. But that is for spills that happen 
at the surface, and the spills that are coming from a mile 
deep, there is dissolution that occurs before it gets to the 
surface. Many of the same molecules that would evaporate on the 
surface become dissolved in the water so we had to modify that 
to handle those cases. So it was the standard procedures, and 
to the extent that we had to modify them for the specific 
instances that happened in this spill.
    Mr. Markey. Can I ask, has NOAA made available the 
background data and formulas that were used to reach 
conclusions on what happened to the spilled oil?
    Mr. Lehr. In terms of the--one component in terms of the 
flow rate, there have been reports on that. In terms of the oil 
budget calculator, which is what I assume that you are 
referring to, this was an oil spill emergency, not an oil spill 
experiment. When we put together the team, our priority was to 
get an answer as quickly as possible to the Incident Command. 
Now, the technical documentation is being written and will be 
peer reviewed. It will be long. It will be boring. It will be 
filled with graphs and charts and all the references and the 
passive voices that are typical of such reports, and I assure 
you, it will bore everybody except for those handful of us who 
actually like to do oil spill science, but I noticed that some 
of our academic friends have asked us for this.
    For our younger friends, I would suggest that patience in 
this case is a virtue. In an emergency, you first get the 
answer. You do not tell Admiral Allen that he has to wait 3 
months while your report goes through peer review, but that 
will come. We welcome people's comments on it. I would 
encourage the new people who are coming into the field from 
nontraditional areas of this to stay interested in it. We like 
to welcome the new blood, but you are going to have to wait a 
little bit for that report to get out.
    Mr. Markey. Well, I appreciate the desire to complete a 
full peer review, Doctor, but you have already issued four 
pages of findings and a 10-page supplement that explains some 
of the calculations in greater detail. If much of this oil 
budget is standard procedure for NOAA in response to an oil 
spill, why can't that information be made available sooner, 
especially given the historic issues that many independent 
scientists have voiced regarding the conclusions of this 
report?
    Mr. Lehr. Well, I would say this. I would prefer, and I 
think all the scientists would prefer that because the 
questions now are on a different time frame and we move from 
the response to damage assessment, that it is better to take 
the time to do it right. Now, yes, some of the methods are 
standard but some of them had to be modified, as I mentioned in 
my testimony, in terms of the evaporations calculations and the 
natural dispersion. We are doing a thorough literature survey 
because again our understanding is, this report is going to be 
looked at not only by oil spill scientists who have been doing 
this for 20 years, in many cases are contributing to the 
report, but by other scientists who are coming to this, this is 
their first major spill event, so we wanted to provide a 
complete document here that will answer all their questions.
    Mr. Markey. Let me ask this. Will NOAA agree to make 
available to the public the citations of the scientific 
literature, formulas or actual algorithms that would allow 
independent scientists to evaluate the report's findings?
    Mr. Lehr. Of course.
    Mr. Markey. Will you release that now?
    Mr. Lehr. It is still being compiled.
    Mr. Markey. You have already released a report last week. 
Could you give us for the public consumption the citations of 
the scientific literature, formulas or actual algorithms that 
you used in creating your oil budget?
    Mr. Lehr. All that--first of all, and again, I am going to 
come back to this. This is not a NOAA product, this is a 
product of a joint effort, and the----
    Mr. Markey. What we are trying to do, Doctor, is to get at 
the methodology so that we understand what was used in order to 
produce your initial oil budget. You are saying that it has to 
be reviewed for some time in order to determine whether or not 
you got it right and so in order, I think, to ensure that we 
have this done in a time frame that provides the information to 
the residents of the Gulf of Mexico, that you release these 
algorithms, you release the scientific literature that you 
relied upon so that there can be independent eyes, independent 
judgments that are also allowed in real time to be able to make 
judgments as to whether or not the formula which was used was 
the correct one to be used, given the consequences to the 
public if that formula was not constructed accurately. In other 
words, would you support making that information available to 
the public, speaking for NOAA?
    Mr. Lehr. For NOAA--and I would assume that all the experts 
that contributed will also be releasing this information. 
That's what the purpose of the report is. Representative 
Markey, what we are doing in this case is going through the 
standard procedure which is done for a scientific report. We 
get the experts. They all contribute to the report. We send it 
back to them for them to look at to make sure that we have got 
their comments and their opinions and their assessments correct 
and then we send it out, as you say, to independent scientists. 
That is what a peer review is. We sent it out to people, and we 
will welcome recommendations for peer review.
    Mr. Markey. But when will that happen, Doctor?
    Mr. Lehr. Excuse me?
    Mr. Markey. What is the time frame for that to happen?
    Mr. Lehr. Well, it has been delayed by a week, because I am 
having to come here, but we are hoping to get it out within 2 
months.
    Mr. Markey. Two months? That is not timely enough, Doctor. 
That is the problem. That is what we are trying to get at right 
here. We are trying to telescope the time frame that it will 
take in order to get that information into the hands of 
independent scientists.
    So you don't want to make all of the data and models 
available but you have given us conclusions that result from 
these models of the data. You then say you don't want to make 
the models and data available to outside scientists because you 
are still having everything peer reviewed post release of your 
budget report. That is to me unacceptable. We need to have that 
information. The report that you released last week received 
international attention. There are many people who are making 
decisions based upon that report. So it is important right now, 
Dr. Lehr, for that information then to be made public so that 
not only is it being peer reviewed in the regular process but 
because of the real-life consequences for the lives of the 
people in the Gulf of Mexico and outside of the Gulf of Mexico, 
because of the toxic nature of the material in the Gulf, that 
that information be made public. There is too long of a gap 
that is going to elapse under the process that you have 
adopted.
    The real issue here is that the public has a right to know 
right now what is going on in the Gulf of Mexico, and your 
report should be analyzed by others right now so that we are 
sure we got it right, because if your numbers are wrong, 2 
months from now could be too late in terms of the remedial 
recommendations which are made to the public, to the fishing 
industry, to the consuming public in terms of the consequences 
for their families. So I ask again for you to release that 
information, that data.
    The flow rate team estimated that 4.9 million barrels of 
oil flowed from the Deepwater Horizon well. The uncertainty of 
this estimate is plus or minus 10 percent, as you said. Does 
NOAA have certainty with regard to the figures for the 
estimates of what happened to all 4.9 million barrels? What is 
the best and worst case estimate for the residual oil that 
remains in the Gulf?
    Mr. Lehr. We have--we do, as part of the calculator, do 
have the estimates of uncertainty for each of the various 
processes, so, for example, in terms of the burn, there are 
some ASTM standards for the burn rate that were applied to the 
spill. It gives us a high degree of confidence. We have very 
low uncertainty for the estimates for that. For evaporation and 
dissolution, again, we have taken samples and matched them up 
with models from both NOAA, from Environment Canada and from a 
large research organization in the European Union, and those 
results match closely so we are fairly confident on those 
values.
    Now, when we get into the dispersed oil, the uncertainty 
becomes larger, particularly for the use of the chemical 
dispersants subsurface, which is a new experience to us, and we 
were very conservative there. Now, we employed the expertise of 
the National Institute of Standards and Technology, who has 
brought in some very excellent statisticians to calculate the 
net uncertainties on it. That is given in those extra pages 
that I believe you were given there, but that will also be in 
the final report, and Representative Markey, I will commit 
today to do whatever I can to speed up the report. I appreciate 
the concern on it. I hope that you and the public and the other 
academics appreciate that because of the importance, because of 
the points that you just stressed, we want to make sure that it 
is done right, and that is why I am making sure that we brought 
in the experts and----
    Mr. Markey. Here is the thing, Doctor. You shouldn't have 
released it until you knew it was right because so much is 
going to depend upon that release, and if you are not confident 
that it is right, then it should not have been released because 
it basically sent a signal with regard to how much of the 
problem remains, and that is really something that is obviously 
of great concern to people who live in the Gulf. They don't 
want to be forgotten. They don't want this to be downplayed or 
lowballed, which is in some quarters what has happened since 
that report was released. So I think it is important, since it 
has been released, to be examined right now so that we can be 
sure that those numbers were accurate and independent 
scientists can quickly look at the formulas and corroborate or 
question, but it should not be something that is done in a 
boring academic setting over a prolonged period of time. It is 
something that has to be done in a dynamic setting in real time 
because of the resources that may need to be dedicated to this 
problem to ensure that it is remediated in a shorter period of 
time than otherwise if your estimates are inaccurate, so that 
is critical, and from a political perspective, the longer the 
time that elapses is the lower the political pressure and the 
public attention will be there to ensure that the resources are 
brought to the problem. And so we have to make sure that we do 
this in a timely fashion so that unlike the Exxon Valdez spill, 
we actually do something in real time so that everything that 
can be learned about it is learned about it, and you agree, 
Doctor, that the amount of oil which is still in the Gulf of 
Mexico and unaccounted for is at least five times the size of 
the Exxon Valdez spill? You do agree with that?
    Mr. Lehr. Well, I agree that this is--and I also note that 
NOAA is taking a lead role in monitoring the oil that is out 
there. We will continue to do that. I don't think the report 
should be interpreted as saying that somehow this spill is over 
with.
    Mr. Markey. No, it is not that it is over with, but there 
was an optimistic spin in some quarters that was placed upon 
that report, and since that is happening in real time, then the 
independent evaluation of that report must happen in real time 
because if it is wrong, then many opportunities for a 
calibrated response to the defects in the report will have been 
lost and so that is why it is important for you to surrender 
this information now to independent scientists.
    So according to NOAA's oil budget, 408,792 barrels of oil 
were chemically dispersed out of a total of 4.1 million 
barrels, approximately 9 percent of the total oil in the Gulf 
of Mexico. This means that 43,900 barrels of dispersant were 
needed to get rid of 408,792 barrels of oil. This means that 
one barrel of dispersant dispersed just over nine barrels of 
oil, yet according to your budget documentation, a dispersant-
to-oil ratio of one to 20 is considered successful. Dr. Lehr, 
it seems to me that the ratio used in this disaster of one to 
nine would not be successful by NOAA's own definition. Would 
you agree with that?
    Mr. Lehr. What we did for--and this is an area that we had 
the hardest time calculating, was the effectiveness of the 
chemical dispersant. The dispersant that was applied 
subsurface, what we called ideal conditions. We made sure--I 
mean, the dispersant was being injected into the oil so it was 
making direct contact. It was a very turbulent flow regime 
there. So this would be the ideal conditions for dispersant 
operations. We asked the people who make a living applying 
dispersants what they thought would be the effectiveness and 
they had numbers as high as 30 or 40 to one ratio. We looked at 
the literature, and the oil industry literature suggested that 
a successful operation was 20 to one, so we decided to be 
conservative and say we will go with the 20 to one. We may very 
well have underestimated the effectiveness of that subsurface 
dispersant.
    Now, at the surface where a lot of the dispersant was 
applied, they were applying on oil which had partially 
weathered and had partially emulsified. The viscosity was high, 
and according to past spills, dispersants would have been not 
as effective, but there was a study that was done by SINTEF, a 
research group out of Norway, with this emulsified oil using 
these dispersants that said that it was showing some 
effectiveness, plus there were some observations on scene by 
NOAA personnel and Coast Guard personnel that suggested that 
the surface operations were being at least partially effective. 
So what we did was to scale down what we would estimate would 
be the effectiveness of the surface operation. I believe we 
estimated it would be like four or five barrels per amount of 
dispersant sprayed and that would take into account that some 
of the dispersant did not interact with the oil. You don't 
always hit the oil. And secondly, the fact that the oil had 
emulsified to such an extent that it was more difficult to 
disperse and to form the small droplets that are necessary for 
the oil to disperse in the water column.
    Mr. Markey. So Dr. Anastas, according to the budget 
documentation of dispersant-to-oil ratio, one to 20 is 
considered successful but this was a ratio which was one to 
nine. Do you believe that that constitutes a successful 
application of dispersant?
    Mr. Anastas. I think my colleague, Dr. Lehr, noted the 
significant uncertainty in the estimates of dispersion. All of 
the evidence, all of the monitoring that was conducted in an 
ongoing way that was required by EPA during the application, 
especially the subsurface application of the dispersant, showed 
effectiveness. We ensured through fluorescent spectrophotometry 
that particles were being formed. This was a high-energy 
system. We have reason to believe and evidence shows that it 
was an effective and relatively efficient----
    Mr. Markey. So given your own numbers and your own 
analysis, how successful would you say that it was?
    Mr. Anastas. Well, I don't think that there is a way to 
measure the ratio between chemically dispersed and biologically 
dispersed oil, so I don't think we can have precise numbers. I 
do think the estimates, as Dr. Lehr noted, whether it is 20, 30 
or 40 to one in terms of a ratio would be more potentially in 
the ballpark.
    Mr. Markey. Well, dispersed doesn't mean exactly the same 
thing as gone, does it?
    Mr. Anastas. No, it does not.
    Mr. Markey. For example, if I put a spoonful of sugar in my 
iced tea and stir it, the sugar is dispersed. You can't see it. 
But if I then drink the iced tea, it still tastes sweet because 
the sugar is still there. The sugar is dispersed but it is 
present. Isn't that somewhat analogous to the situation we face 
in the Gulf with this dispersed oil as well?
    Mr. Anastas. Not exactly. The sugar dissolves in solution. 
Dispersant means that it is being broken up into small 
particles, the whole purpose of which is to make them more 
ingestible and digestible by the microbes because the only time 
that oil actually goes away is when it is degraded. Now, that 
degradation can happen through biological processes. It can 
happen through physical processes. Physical processes, when it 
is broken down by the water itself, is called hydrolysis. When 
it is broken down by temperature, it is called thermolysis. 
When it is broken down by light, it is called photolysis. These 
degradation processes all combine and the whole purpose of the 
dispersant is to make it more accessible to these degradation 
processes.
    Mr. Markey. What is the time frame for that process to take 
place? How do you measure that in terms of the actual amount of 
oil that is as a result more subject to being consumed because 
the dispersant has been released? How can you measure that over 
such a vast area?
    Mr. Anastas. There have been studies done even by the EPA 
and its partners, and part of the rationale for applying 
dispersants is because we have seen rates of degradation 
increase by as much as 50 percent with the use of dispersants.
    Mr. Markey. Did you say 15 or 50?
    Mr. Anastas. Five zero, 50 percent, over those untreated.
    Mr. Markey. Thank you.
    Dr. Lehr, government scientists have now estimated that 4.9 
million barrels of oil escaped from the BP Macondo well but 
that number does not include the methane that also came out of 
the well, much of which entered the Gulf of Mexico. Although 
the impacts of methane are not well understood as that of oil 
is understood, we know that it has the potential to cause harm 
when released at such significant levels above the natural 
seepage of methane in the Gulf. As part of the natural 
resources damage assessment and associated restoration plan, 
will NOAA be looking at the impact of the release of methane 
from the BP well?
    Mr. Lehr. In terms of the effect, I would believe the NOAA 
folks would take that into consideration for sure. Now, I am 
not part of the damage assessment team. We have a different 
group that does that. And the oil budget calculator did not 
take it into account because it was an oil budget calculator. 
There is no response to dissolved gases that you can't put 
skimmers out and so on. So that is why it wasn't in the report 
that you saw. But in terms of the damage assessment, certainly 
you would take into account all the hydrocarbons that were 
released and what effects they would have on the environment.
    Mr. Markey. Just a few weeks ago in response to a letter I 
wrote, FDA explained that while it does not presently monitor 
for dispersant chemicals in the issue of seafood, the agency is 
working closely with NOAA to conduct further studies to 
determine if dispersant chemicals or their metabolites can 
bioconcentrate in the flesh of seafood species. Mr. Kraemer, 
what is the status of these studies?
    Mr. Kraemer. Mr. Chairman, I would like to refer this 
question to Dr. Margolis.
    Mr. Markey. Could you identify yourself for the record, 
Doctor?
    Ms. Seyfert-Margolis. Dr. Vicki Seyfert-Margolis.
    Mr. Markey. And what is your title, please?
    Ms. Seyfert-Margolis. I am the Senior Advisor for Science 
Innovation and Policy in the Office of the Commissioner of Food 
and Drug Administration.
    We have been working with NOAA on developing chemical 
methodologies for the detection of one of the major components 
of dispersant, which is dioctyl sulfosuccinate sodium salt, or 
DOSS. This component is about 20 percent of the total Corexit 
dispersant which was applied in the Gulf. Essentially what we 
have done is two series of studies where we are exposing crabs 
and fish in tanks in controlled settings to DOSS at 100 parts 
per million, which is an effective concentration of 20 parts 
per million of the DOSS. We then do exposure 24 hours with 
subsequent washouts in clean saltwater for 24, 48 and 72 hours 
and then assess the concentration of DOSS in the hepatopancreas 
or liver as well as the muscle tissue. We have preliminary data 
to date suggesting that there is not any bioconcentration of 
DOSS in the hepatopancreas or in the muscle tissue of crabs.
    Mr. Markey. Could you explain what DOSS is so that the 
public who is watching can understand what that is?
    Ms. Seyfert-Margolis. Sure. DOSS is a detergent, 
essentially a detergent-like compound that is actually found in 
a variety of products including a number of over-the-counter 
products. It is used to help disperse the oil but it is 
generally an inert nontoxic substance, and there have been 
significant studies on toxicity of DOSS demonstrating a lack of 
toxicity of this particular component of Corexit.
    Mr. Markey. Please continue.
    Ms. Seyfert-Margolis. So essentially we conducted these 
tank studies and we found no evidence to date of 
bioconcentration of DOSS in the crabs and some shrimp that have 
been tested so far. We are still actively assessing these 
samples in the controlled setting, and additionally we are able 
to go back to all of the retrospective samples which were 
collected because this particular component is present in the 
fraction or extract that we made for monitoring PAH for the 
reopenings.
    Mr. Markey. What about the other components of Corexit in 
addition to DOSS? Have you done the analysis of the other 
components of Corexit, this chemical that was shot into the 
ocean in order to determine the toxicity of those components?
    Ms. Seyfert-Margolis. We have not. We have started with 
this as a marker for DOSS because it is one of the principal 
components of the Corexit and therefore will be very readily 
detectable so it essentially serves as a marker for the 
dispersant.
    Mr. Markey. What is the time frame that you are going to 
use in order to do an analysis of the other components in 
Corexit to determine whether or not there is a toxicity, there 
is a danger that could attach to it if human beings consumed 
that chemical?
    Ms. Seyfert-Margolis. Some of the other components that are 
present in Corexit such as the petroleum distillates would be 
found in our PAH analysis as well, so it would be difficult to 
distinguish those from petroleum distillates in the oil itself. 
We are not currently looking at any of the other components of 
Corexit.
    Mr. Markey. You are--can you repeat that?
    Ms. Seyfert-Margolis. We are not currently doing tests on 
the other components of Corexit right now because we wanted to 
establish the methodologies using the principal, one of the 
principal components which we felt we could detect readily as a 
first step.
    Mr. Markey. How long will it take you before you actually 
conduct experiments on the other components?
    Ms. Seyfert-Margolis. I can't speak to that because it is 
not clear whether or not we have the methodologies in hand to 
detect all those at the present time.
    Mr. Markey. So if you find DOSS in your seafood samples, 
then what?
    Ms. Seyfert-Margolis. Then we would consider that as 
something that we would need to go back and reevaluate the 
samples for a possible presence of dispersant.
    Mr. Markey. Are there potentially other components in 
Corexit that are known to be toxic?
    Ms. Seyfert-Margolis. There are a number of components of 
Corexit. I think the EPA could probably speak better to 
toxicity studies that have been done on the various components 
of Corexit.
    Mr. Markey. Dr. Anastas, are there other components in 
Corexit that have been known to be very toxic?
    Mr. Anastas. I guess I would first start off by saying that 
the testing that we conducted, that the Administrator ordered 
conducted, was on Corexit itself. So of course when you are 
looking at the entire formulation, all of the components and 
their contributions to toxicity would be considered, and it is 
important to look at the formulation as a whole. So the 
toxicity results that I reported in my opening statement----
    Mr. Markey. So are you saying that as a result, that there 
is no point in even bothering to examine the other components 
in Corexit because you have already studied Corexit?
    Mr. Anastas. No, I am saying that when you do toxicity 
studies on the Corexit as a whole, you are in essence doing 
toxicity studies on the components.
    Mr. Markey. And what I am asking, as a result, if I can go 
back to the FDA, does that mean that there is no reason to do 
any further studies of these materials, even though some of 
them are known to be toxic?
    Mr. Kraemer. Mr. Chairman, FDA, first of all, is fully 
aware of what are the components of Corexit, and we have looked 
at each one of these for toxicity, and as you are aware, in our 
response to your letter to the agency, each of these components 
are low toxicity to humans. I think we have to separate here 
the distinction between toxicity to marine animals as I think 
was the concern that EPA was suggesting from toxicity to humans 
if it is present in the flesh of the fish, so of course FDA's 
concern is the latter toxicity to humans if it in the flesh of 
the fish. We have looked at each of these components of Corexit 
and they are all very common household constituents so they are 
in things such as lip gloss and toothpaste and a variety of 
over-the-counter drugs, so they have been approved for use for 
consumption by people. These are components that FDA reviews 
for food additive purposes, also reviews----
    Mr. Markey. You have yet to put in place, though, a test in 
order to determine whether or not any of these components are 
in the fish. Is that correct? You have only done a study so far 
on the DOSS as a marker but not on these other chemicals. So as 
you are sitting here as the FDA and representing the public's 
interest in determining whether or not these fish are safe to 
eat, it is without having completed the study in terms of these 
actual component chemicals inside of the fish. Is that correct?
    Mr. Kraemer. I would to, if you don't mind, put that 
question in the context of what we have done, and I do intend 
to answer your question specifically, but the first question 
that FDA wanted to answer with respect to dispersants is 
whether the constituents of or the components of the Corexit, 
what do we know about those and what do we know about whether, 
one, they can get into the flesh of the fish, and two, if they 
were in there, what would be the risk to humans. The answer to 
all of these is that they have a very low potential to get into 
the flesh of fish. That doesn't mean they won't get in at any 
level, it means that they have a low likelihood of getting into 
the fish and are highly unlikely to accumulate at levels above 
what is in the environment, which we believe is comforting.
    The second question as I mentioned is, do the components, 
are they toxic in and of themselves, and as I said, we are 
aware of all of these components and they have common uses in 
products that either intentionally consumed, or as in the case 
of lip gloss, do get consumed as a matter of course because of 
the way they are used, and these components have approval 
levels in each of those uses, and those levels are much higher 
than the levels that under any circumstance you could imagine 
would end up in the flesh of the fish. So it is true that we 
have decided that in the case of DOSS in particular, at least 
as a starting place, we are looking to see whether--we want to 
confirm in a definitive study what we already believe we know 
the answer to, and that is, that is unlikely to bioconcentrate, 
and as Dr. Margolis put forward a minute ago, the studies, 
although just underway at the current way, but the preliminary 
information is very suggestive that they will not 
bioconcentrate, so again confirming what we believe we already 
knew. It is a reasonable question to ask if we can look at the 
other components. I think that is something that we ought to 
do.
    Mr. Markey. Just so I can understand, Doctor, so right now 
in the parts of the Gulf that have been reopened for fishing, 
you have okayed the consumption of that food, those fish, even 
though you haven't completed testing on the component parts of 
Corexit but with the belief that it does not accumulate in fish 
at a level that would pose a danger to the public as they 
consume that fish. Is that correct?
    Mr. Kraemer. It is correct to an extent, but what I would 
like to clarify is that we are doing some analysis of the fish. 
This is through the sensory testing that I mentioned earlier. 
And to give you an understanding there, these are experts who 
are trained. I think there is a misunderstanding by many about 
the nature of this test. Quite frankly, these are folks who go 
through significant training. Not every one of them can get 
through that training and demonstrate the skill to be able to 
pick up different odors, but the panels that we have in place 
on the Gulf Coast now, these are both NOAA and FDA people 
working together, are truly expert, and they have been 
calibrated against the standard of seawater, oil and dispersant 
that was collected at the well site so they can detect that 
combined odor. They were also calibrated specifically against 
the odor of dispersant, which has a much milder odor but still 
detectable, and so all of the samples that we are using for 
reopening of waters have been run through this analysis. We 
recognize that there is more comfort in having a chemical test, 
and that is the reason that we have engaged with NOAA in the 
development of the chemical test for the DOSS component. We 
believe it is highly unlikely that dispersant will be present 
by itself but there is certainly the possibility that it could, 
so that is the purpose for the develop of that test capability.
    But again, I don't want to suggest that we lightly came to 
the conclusion that the components of Corexit are unlikely to 
accumulate and if they did are nontoxic. There is an extensive 
body of science around all of these components which FDA has 
looked into. So as we have said and made public statements, we 
are confident that based on the current science, the likelihood 
for bioconcentration in fish is very low, and should it occur, 
the toxicity of those components would be very low. The studies 
that we are talking about are really there because of the 
unprecedented nature of this spill. We want to be able to 
assure the public that we have a test but we don't believe 
there is any risk to the fish that is caused as a result of the 
fish that are already on the market.
    Mr. Markey. In the same letter, FDA stated that it defers 
to EPA to determine if dispersant and oil residues can 
accumulate in aquatic plants and eggs. Dr. Anastas, can oil and 
dispersant bioconcentrate in fish eggs?
    Mr. Anastas. The properties of oil and the degree to which 
it dissolves in fat can allow oil to in principle enter into 
fat tissues and potentially enter those biological systems. All 
of the models that we have done on the dispersants would 
certainly suggest that we would not see the dispersants 
entering into and bioaccumulating and biomagnifying in the way 
that oil may.
    Mr. Markey. Is it possible that a fish may be caught and 
test clean in the adult tissues but contain eggs that have high 
levels of these toxic chemicals?
    Mr. Anastas. I am not aware of a mechanism by which that 
could occur.
    Mr. Markey. You believe that it could occur?
    Mr. Anastas. No, I am not aware----
    Mr. Markey. You are not aware?
    Mr. Anastas [continuing]. Of a mechanism by which that 
could occur.
    Mr. Markey. Do you believe that further testing on eggs 
meant for human consumption be performed to ensure that all 
fish products on the market are safe?
    Mr. Anastas. I am sorry. If you could repeat that, please?
    Mr. Markey. Should further testing on eggs meant for human 
consumption be performed to ensure that all fish products on 
the market are safe?
    Mr. Anastas. I would defer to my FDA colleagues on that. I 
would have to say that the more data that we have, the more 
sampling we have to verify this is always good, that we need to 
rely on the data and the data needs to drive us.
    Mr. Markey. Dr. Lehr, how do FDA and NOAA ensure that fish 
that were located in oiled waters and were contaminated with 
toxic chemicals from the oil have not been swimming to areas 
that have been cleared for fishing?
    Mr. Lehr. I mean, the presumption here is that when you 
take it, the fish is guilty until proven innocent, so to speak. 
So when they do their sampling, the fish has to--you don't 
assume that it is cleared. You assume that it has to pass the 
tasting test, and then only then if it passes those does it 
then go to the laboratories of NOAA for the testing for the 
PAHs. So I would say that in the case here that we have that 
that we would take that into account. However, to be on the 
safe side, there is a five-mile buffer between the area where 
the places would be open or have not been closed in the first 
place and where oil has appeared so----
    Mr. Markey. Are you----
    Mr. Lehr. You would have to be an athletic fish.
    Mr. Markey. Are you right now engaging in intensive testing 
where the oil is still present in large quantities? Are you 
doing testing there?
    Mr. Lehr. The testing for the fish is being done in areas 
where the oil is no longer present on the surface.
    Mr. Markey. Where the oil is----
    Mr. Lehr. It is in the areas where either oil was never 
present or in areas where it hasn't been present for some time. 
Then they do the sampling. And then of course, every sample has 
turned out to be negative. They never detected any PAHs in the 
fish.
    Mr. Markey. And I am just going to use a hypothetical, and 
I don't know how accurate this is but let us just use it as a 
hypothetical, that the bluefin tuna, which is ultimately caught 
off of Georges Bank off of New England does spawn down in the 
Gulf of Mexico. Let us say just for the sake of the discussion 
and only for the sake of the discussion that some of that 
spawning is going on right now inside of the much more oiled 
area of the Gulf. We know that those fish are ultimately going 
to migrate up off the coast of New England. What is the testing 
for that fish or other fish that is going on inside of the 
oiled area that will ensure that it is safe when it finally 
reaches the part of the ocean where that fish or any fish is 
caught?
    Mr. Lehr. I think I am going to defer that question to 
experts that can answer that better than I can right now.
    Mr. Markey. Is there someone here who can do that for us? 
Can you move up to the microphone, please, and identify 
yourself?
    Mr. Gray. Chairman Markey, I am John Gray. I am the 
legislative affairs person. We don't have a person from the 
fisheries service here. We had one witness and it was going to 
be Mr. Lehr, so we can get those answers to you but we don't 
have that person here.
    Mr. Markey. I think that is an important issue to be 
resolved in people's minds because it just seems, I think, to 
someone that thinks about the fishing industry that these are 
not stationary or territorial entities in many instances. We 
are seeing sharks all up and down the coastline of New England 
and they don't seem to limit themselves just to a 5-mile radius 
right now, and just to say don't worry about it a few miles 
further away, that the sharks only stay within a 5-mile radius 
doesn't seem as though that would be the kind of warning that 
the public would think was sufficient in order to guarantee the 
safety of their families. So I think this is important 
information for us to have and the more that it can be put in 
very simple terms for the public, I think the better it will be 
for the fishing industry and for the consuming public.
    Mr. Kraemer, you are seeking recognition?
    Mr. Kraemer. Yes. I would just like to respond a bit on 
that. I think there are several answers to that question or 
several pieces of the answer to that question. The NOAA testing 
has included testing outside of the closed areas, and the 
purpose of that testing was to look for whether or not--first 
of all, to determine whether or not the closures were 
sufficiently protective, so this 5-nautical-mile buffer zone 
that was put around it we believe is sufficiently protective. 
The question, though comes, was it sufficiently protective. So 
testing was performed outside the area in which the closures 
were. Beyond that, both NOAA and FDA have done market sampling, 
so this is fish that were commercially harvested certainly in 
open waters so samples were collected there, and we believe we 
would have picked up any indication that there were fish that 
had higher than expected levels. And then finally, especially 
true for finfish, they clear the PAHs very rapidly from their 
body, usually within a matter of days. So a scenario of a fish 
that contaminated in the Gulf making it up to New England I 
think is highly improbable and we don't believe that that would 
be something that consumers should be worried about.
    Mr. Markey. Are you actually testing for that, though, 
given the unprecedented underwater experiment----
    Mr. Kraemer. We are testing Gulf product, that is, product 
that has been commercially harvested in the Gulf and that is 
currently being marketed, so we are testing that product, and 
again, it is not showing levels of PAHs above the background 
levels that were there before the spill occurred. So we believe 
that the fish coming out of the Gulf do not have levels that 
are of concern.
    Mr. Markey. Mr. Kraemer, is the FDA monitoring seafood 
recovered from the Gulf for the presence of heavy metals 
present in crude oil?
    Mr. Kraemer. We are not, no, but there is a NOAA program, 
the Mussel Watch program, that it is a bit of a misnomer in the 
Gulf in that it is not mussels that are being tested, it is 
oysters, but these are what we would call a sentinel species in 
that they are the species that is most likely to absorb 
contaminants including heavy metals, the most likely to hang 
onto that within their flesh and also the species most likely 
to bioconcentrate, that is, have it at levels above what would 
be in the environment. So this program has been in place for 
decades in the Gulf so we have a very solid--well, in fact, 
nationwide--so we have a very solid background level. We know 
what the levels of these contaminants are. It includes any of 
the heavy metals, for example, that you would be concerned 
about.
    Mr. Markey. But are you monitoring for it right now?
    Mr. Kraemer. I would defer to NOAA to answer what has been 
done on this but I wanted to mention that FDA has not but the 
NOAA program we believe is a good sentinel program.
    Mr. Markey. Let me go to NOAA then because it is my 
understanding that compounds like mercury, arsenic and other 
heavy metals that are present in crude oil have the ability to 
accumulate in the tissues of fish in levels that may cause harm 
particularly to pregnant women and children. Has the FDA or 
NOAA here examined seafood for the presence of heavy metals? 
Dr. Lehr.
    Mr. Lehr. There is some monitoring that is being done as 
part of the Mussel Watch program in the area. Again, I am going 
to defer to my colleagues to answer that correctly, and we will 
get back to you with an answer to that.
    Mr. Markey. So Mr. Kraemer, back over here at FDA, you 
don't screen for heavy metals. You think that NOAA may but the 
witness today does not know the answer to that question.
    Mr. Kraemer. I hate to speak for NOAA in this regard but it 
is our understanding that NOAA has collected a sampling run, if 
you will, from one end of the Gulf to the other where they 
would normally collect for the Mussel Watch but that the 
results are not yet back, so we don't have analyses of them. We 
do not expect to see an increase based on this spill but 
certainly those results will be confirmatory of that.
    Mr. Markey. Well, Mr. Kraemer, I wrote a letter to the FDA 
on this issue of heavy metals 6 weeks ago and I have yet to 
receive an answer from the FDA.
    Mr. Kraemer. And I apologize for that, Mr. Chairman. I 
would be happy to respond to those questions at this time.
    Mr. Markey. I would not have asked the question if I did 
not believe that it was important. I mean, heavy metals 
obviously have a danger that attaches to them and to have this 
kind of regulatory black hole be created here today between the 
FDA and NOAA in terms of knowing what the response is to 
testing for heavy metals in this fish which we know can 
accumulate in fish is something that obviously should have been 
identified within the last 6 weeks since I wrote the letter. 
When can I expect that response from the FDA?
    Mr. Kraemer. In a matter of days.
    Mr. Markey. Thank you, Mr. Kraemer, very much.
    Dr. Lehr, how does FDA and NOAA ensure that fish that were 
located in oiled waters and were contaminated with toxic 
chemicals from the oil are not then swimming to other areas? I 
am sorry. I have already asked that question.
    Let me move on to the FDA and NOAA. You have agreed on a 
protocol to examine when closed federal harvest waters can be 
reopened. That protocol relies heavily on surveillance tests 
and sampling that generate data about the concentration of 
particular contaminants found in seafood. It is my 
understanding that there have been fishery reopenings in State 
waters within 3 miles of the coastline of Louisiana and 
Mississippi. Does NOAA and FDA have access to the data that is 
used to drive the reopening decisions in State waters within 3 
miles of the coastline of Mississippi and Louisiana? Mr. 
Kraemer.
    Mr. Kraemer. Thank you, Mr. Chairman. The answer is yes. 
The protocol that was developed jointly by FDA, NOAA and EPA 
along with the five Gulf Coast States calls for the States to 
provide that data to FDA and NOAA. I should say that for 
reopening purposes, the States are acting under their own 
authority, as I think you know.
    Mr. Markey. What role does the FDA and NOAA have in the 
opening and closing of State waters?
    Mr. Kraemer. When the State has made a decision that they 
would like to reopen a portion of their waters for a particular 
fishery, for example, for finfish or for shrimp, they develop a 
sampling protocol or plan, and that identifies how many of each 
of the species and where they are going to be located that they 
intend to collect. FDA and NOAA review that proposal and either 
concur with it or make recommendations for changes, and at that 
point the State then goes out and collects those samples and 
submits them to the NOAA laboratory in Pascagoula, Mississippi, 
which is where the sensory testing that I described a minute 
ago is performed. If a sample passes the sensory testing, then 
it is submitted to a chemical laboratory, and this is where the 
samples split. If it is federal waters, which isn't the 
question you raised, the sample would go to a NOAA laboratory. 
If it is a State waters, then the sample is handled by FDA or 
one of the State laboratories that we have under contract, and 
that is where we perform the analysis for PAH. The sensory 
analysis, as I mentioned, is for odors indicative of oil as 
well as odors that are indicative of oil contamination--I am 
sorry, of dispersant contamination.
    Mr. Markey. So can the FDA and NOAA state unequivocally 
that fish caught in the State waters are safe to eat? Can you 
state that unequivocally?
    Mr. Kraemer. FDA has expressed confidence in the fish that 
are commercially marketed from the Gulf Coast, and as I said, 
we--I didn't mention that the sample results then come back to 
FDA and NOAA for review and FDA then provides its concurrence 
to the State before the State reopens. So we are aware of the 
state of the oiling in that area and we are aware of the levels 
of the results of the analytical tests before the water is 
reopened by the State. So yes, we are able to vouch for the 
safety of those fish with respect to the contamination from the 
spill.
    Mr. Markey. Dr. Lehr, do you agree with that? Do you agree 
that the federal government is able to vouch unequivocally that 
the fish caught in State waters are safe to eat as well as 
federal waters?
    Mr. Lehr. I would say that the fish caught is meeting all 
the standards that were developed by FDA and NOAA.
    Mr. Markey. And what about noncommercial fishing? 
Recreational fishing is a major tourism sector in the Gulf. Can 
we be sure that those fish are safe to eat as well? Mr. 
Kraemer.
    Mr. Kraemer. FDA is directly responsible for recreational 
catch but I can tell you that again the States again exercise 
that control except in federal waters where NOAA exercises that 
control. But the States have implemented closures for 
recreational catch that mirror the closures that they have for 
commercial catch. So the safety of the recreational catch 
should be at the same level as commercial.
    Mr. Markey. Thank you, Mr. Kraemer.
    Dr. Anastas, with regard to the use of dispersants, Dr. 
Suatoni of the Natural Resources Defense Council says in her 
testimony that ``it would be unwise to draw conclusions about 
the safety of this unprecedented application of chemical 
dispersants from two laboratory experiments and field 
observations.'' Do you agree or disagree with that statement?
    Mr. Anastas. I think it is important to follow the data.
    Mr. Markey. Excuse me?
    Mr. Anastas. I think it is important to follow the data, 
and what that means is that we look at the data and what that 
data tells us but never remain satisfied. That is why we have 
ongoing monitoring programs. That is why we will always 
continue to ask the tough questions. That is why we are looking 
to have an ongoing long-term research plan so we do understand 
not only the current situation but the long-term effects.
    Mr. Markey. Thank you.
    Mr. Kraemer, polyaromatic hydrocarbons, PAHs, are one of 
the most concerning compounds present in oil because of their 
significant health impacts. However, these compounds are also 
very quickly metabolized in aquatic species, particularly in 
certain types of fish. It is my understanding that polyaromatic 
hydrocarbons are often metabolized into products that are 
retained in the flesh and can be more toxic than the parent 
compounds. In the market surveillance, is the FDA examining the 
metabolites of PAHs in the analytical sampling tests?
    Mr. Kraemer. It is my understanding that what we are 
looking for is specific PAHs and not any metabolites of those 
PAHs. So I think the short answer is no.
    Mr. Markey. Dr. Seyfert.
    Ms. Seyfert-Margolis. I think there is two points of 
clarification I would like to add, Chairman Markey, to go back 
to your question on heavy metals, which I would like to get to. 
To clarify on the metabolite issue, we have been engaging some 
experts in academia to discuss just this. I have had several 
conversations with Dr. Overton at LSU about their experiences 
with PAHs and metabolites that may be derived from those but we 
are not currently testing for those, but I do want to add that 
to date we haven't found any level. In fact, almost every test 
that we have conducted on the fish and shrimp that have been 
collected to date and other seafood has been completely 
negative, below our limit of detection for the PAHs themselves, 
if not very, very low levels as Mr. Kraemer stated, a thousand 
times below what would one----
    Mr. Markey. Have you been looking at fish that are right 
now inside the oiled areas?
    Ms. Seyfert-Margolis. No.
    Mr. Markey. I think that that is important for people, and 
I would recommend to you that you do some testing there. I 
think it is important for the public to know that inside the 
oiled area you are also doing testing because people will be 
concerned that there could be some migration outside of that 
oiled area subsequently, especially if the fish then move to 
areas where they are traditionally caught that might not be 
there in that area and that might not be this month or next 
month or the month after but some point in the future I think 
it would be very helpful if you would do some of that testing 
as well just so that we can see what happens in the most 
concentrated area as opposed to where you are now testing, and 
I think that is important information. I actually think it is 
important information going forward long term. We should know 
what happens to fish where the oil is most dense at this time. 
Doctor.
    Ms. Seyfert-Margolis. Just one more point of clarification 
on I think this point which is very well taken and your points 
on heavy metals. We are also engaging with NIH and other 
scientists to develop long-term toxicity studies. I think those 
are incredibly important in terms of looking at potential for 
accumulation of heavy metals and toxicities that may derive 
from that. And again, I would add that we do think that the 
surveillance through the Mussel Watch program is an incredibly 
important first line of defense but that there are active 
discussions about long-term toxicity studies and we will be 
engaging in these studies for years to come.
    Mr. Markey. Again, I would think that it would be important 
to begin those studies right now by going to the most 
potentially toxic areas and finding the samples now that are 
then used as your baseline, and I think that is long term going 
to be something that a lot of people wished was there in 
significant quantities in order to match off about what is then 
found at the periphery, so I would recommend to you that you do 
that.
    And again, let me ask the question again. Do you plan to 
test for metabolites?
    Ms. Seyfert-Margolis. I think this is part of our ongoing 
discussions with NIH. In fact, there is a meeting happening 
right now with several of the agencies and long-term toxicity 
studies and the design of those is one of the points under 
discussion.
    Mr. Markey. Thank you.
    Mr. Kraemer, there has been much criticism of the seafood 
sampling plan, particularly about the method of risk 
assessment. It is my understanding that the level of 
contamination with PAHs that is considered safe does not take 
into account vulnerable populations such as pregnant women and 
children, and this is because the assumptions made in the plan 
calculate safe levels based on an average adult male body 
weight of 176 pounds. Has the FDA produced guidelines to ensure 
that children and pregnant women are adequately protected from 
contaminants that may be present in seafood?
    Mr. Kraemer. I think the short response to that is that we 
believe that the levels of concern that we established for the 
reopening protocol are quite conservative and will be 
sufficiently protective for all populations but we also 
acknowledge that these are valuable comments and we are 
committed to looking again at the calculation of the levels of 
concern to make any judgments about whether we need to modify 
the levels that we have established for the reopening. I would 
like to point out, though, that again as we mentioned before, 
the levels that we are finding in fish flesh are essentially at 
levels that they would have been at before the spill. So 
whether or not the values would change, we are not seeing 
levels that should be of concern for children or pregnant 
women.
    Mr. Markey. And I appreciate the conclusion which you 
reach, but as you know, for 100 years, almost all medical 
research was done on the prototypical 176-pound male and only 
in the 1990s under pressure from the women's movement that 
independent research that dealt with the unique nature of women 
and children begin to be introduced. So the very fact that the 
classic 176-pound male is still used here is something that I 
think you should reexamine in terms of whether or not that is 
sufficient to deal with the more vulnerable population which 
are women and children in this particular instance. The 
extrapolation of all of these lessons over to women and 
children I think is something is probably not outdated and this 
may be one of the last remaining models that continues to stay 
on the books as the exclusive means by which such a measurement 
is in fact made of the risk to human beings.
    Mr. Kraemer, if an analytical test conducted by NOAA 
indicates that contaminated seafood has been found that was 
harvested from open waters, how does NOAA communicate this to 
FDA and what is the feedback method to stop others from fishing 
in the same place?
    Mr. Kraemer. Well, we have communications with NOAA at a 
number of levels so we communicate at the senior leadership 
level, we communicate through the National Incident Command 
process and we also communicate on multiple daily calls between 
all three agencies at the staff, scientific and technical 
levels, so any one of those routes could be used to move that 
information. Fortunately, we haven't had to deal with that 
information yet, but if it were to occur, we would immediately 
investigate, and that investigation would be to look at the 
analytical results, confirm that they in fact show that the 
product is what FDA would call adulterated and if we found in 
fact that it did reach that level of concern, either we or the 
State would act through our authorities to remove that product 
from the market, and also to reevaluate the adequacy of the 
closure that is in place.
    Mr. Markey. Thank you.
    Dr. Lehr, last Friday Admiral Allen issued a directive for 
a coordinated integrated system of ocean monitoring involving 
federal, State and academic monitoring efforts to detect 
remaining submerged oil in the Gulf. Can you tell us more about 
this effort and why this directive was necessary at this time? 
Was this coordination not occurring over the past 4 months?
    Mr. Lehr. Coordination in terms of tracking the subsurface 
oil has been happening since the beginning of the spill. In 
fact, early on in the spill, we went out and made arrangements 
with the experts who are experts in, for example, well blowouts 
from the Carson University, provided us their information of 
how the oil would act. We also made arrangements with SINTEF, 
which has a subsurface model that we could track the oil and 
now we have brought in our own models that are tracking it as 
well, tied in with all the detailed sampling that is being 
done. Now, I think the directive now of course other groups and 
other agencies have been doing it and the idea is to now bring 
them all together as a coordinated approach. I think that is a 
good idea.
    Mr. Markey. Are you saying that this is nothing more than a 
continuation of what has been going on all along?
    Mr. Kraemer. I would say this----
    Mr. Markey. And I guess I would ask, why was a new 
directive necessary if this was something that is nothing more 
than a continuing effort?
    Mr. Kraemer. I think what the admiral is stressing is that 
we are focusing now on the subsurface oil with the surface 
problem being removed and bring in extra resources to do that. 
Many of the folks at NOAA that I know of who are doing the 
surface trajectory have now been transferred to working on the 
subsurface trajectory collection, so I think to say it is a 
redirection as the problem has evolved and leave it at that.
    Mr. Markey. Thank you. What do we know about the dispersed 
oil and dispersant that is on the ocean floor? What species are 
affected there and how does that impact the food chain? Dr. 
Anastas.
    Mr. Anastas. I think you are asking an extremely important 
question. There are issues that we are looking to in real time 
develop research plans in the immediate and the longer term to 
fully understand what the oil is doing. I do refer back to the 
opening statements about we are not detecting dispersants in 
any concentrations to the limits of our methods of detection, 
so we are not seeing the presence of those substances.
    Mr. Markey. So are you saying you are not seeing 
dispersants and oil collecting on the ocean floor at this time?
    Mr. Anastas. In the thousands of samples that have been 
run, we are not detecting dispersants, the dispersant 
constituents on the ocean floor at this time. We have not seen 
a hit of dispersants at this time. We have the one hit that was 
referred to in NOAA, the one hit that was referred to at EPA in 
EPA testing. But the question that you asked about the oil on 
the ocean floor, we have seen some reports in the media that 
have talked about the oil on the ocean floor. This is something 
that as we look to ensure we understand the long-term effects, 
that this is exactly one of the questions that we need to 
investigate and find out, either confirm or disprove the 
presence of this oil and also to understand the impacts of this 
oil.
    Mr. Markey. Thank you.
    Why don't we do this? Why don't we hear from each one of 
you in reverse order of your opening testimony so that you can 
tell us what it is that you want the American public to 
understand about the state of the Gulf of Mexico at this 
particular point in time? We will begin with you, Dr. Anastas.
    Mr. Anastas. Thank you very much. I think the single 
message that Administrator Jackson has sent is that we need to 
be vigilant on understanding what the nature of the problems 
are, the immediate term and the long term, and that monitoring 
is crucial, that this crisis is not over, that the monitoring 
will continue, the work will continue, the research will 
continue into the long term, and getting that understanding not 
only to inform our decisions but to make sure that we get it to 
the American public as quickly as possible is one of our 
primary goals in accomplishing our mission of protecting human 
health and the environment.
    Mr. Markey. Great. Thank you, Dr. Anastas, and thank you 
for your work on this issue.
    Mr. Kraemer.
    Mr. Kraemer. Thank you. The question that we are very often 
asked in FDA is, what should a consumer do to make sure that 
their next meal of Gulf seafood is safe, and the answer I like 
to give to that and I would like to respond here is that they 
needn't do anything. That is FDA's job. And we take that job 
very seriously. We are confident that the program that FDA has 
put together along with our colleagues in the federal and State 
governments is sufficiently protective and that they need not 
take any steps to protect themselves from the seafood, that it 
is essentially at the same level of safety as it was before the 
spill. Having said that, we recognize that this is an 
unprecedented event, and our looking at the long-term safety of 
this source of food is something that we can't overlook, and I 
think we have mentioned here a few ideas of things that we do 
need to look at into long-term studies, the development of 
methods that can detect contaminants that we presently can't 
detect, and we think those are positive steps to providing 
further assurance to the public.
    Mr. Markey. Thank you, Mr. Kraemer, very much.
    And Dr. Lehr.
    Mr. Lehr. Thank you, Mr. Chairman. Before I get to my 
closing, I want to correct one thing. I am a good scientist but 
perhaps a bad impromptu speaker, and so one of the things that 
you brought up was to suggest that this calculator was not 
involving independent scientists. The independent scientists 
contributed to the development of the calculator and 
independent scientists, very qualified scientists, will be the 
ones who are doing the reviewing of it. The field of oil spill 
science I like to say is so small that we could have a meeting 
in a ballroom and still have plenty of room to dance, and we 
have been able to tap many of the biggest names in that field 
for both the review and for the development. So I would like to 
stress that, particularly since there are other folks who this 
is their first big spill and they are coming in and perhaps 
don't have the background in this area.
    Now, for my other comment, as my colleagues have said, this 
is a continuing operation. The spill is far from over. We are 
beginning in a new phase, and NOAA and all the other agencies 
will be involved in this, and for those of us who are spill 
experts, we get paid for doing this but what I would like to 
think and people don't get enough credit to, when we went to 
develop our tools both in terms of the flow rate calculations 
and in terms of this budget calculation, we went out to many of 
the independent academics and other experts, and in many cases 
they were not being paid any compensation. I have not yet had a 
single instance where any of those folks have refused to work 
on any of the projects and the requests that we have done. So 
if there is a silver lining in the terrible event of the spill, 
it is the extent to which the American people are willing to 
volunteer their efforts at both the highest expertise levels 
down to the fellows who are volunteering to come out and clean 
up the beaches. Such tragedies do bring out the best in our 
country and I think that that is something that should be more 
brought forward perhaps.
    Mr. Markey. Thank you, Dr. Lehr, and again, thank all of 
you for your work.
    The point that I was making earlier was that in terms of 
the study that was released last week, first you gave the 
answer and now you are going to be showing your work, but in a 
peer-reviewed way, and that is the opposite of the way in which 
a study of that magnitude would be released, and all I am 
saying is that given the way that this has unfolded, that it is 
important that everyone including independent scientists who 
may not have participated in your creation of these models can 
see the assumptions upon which they were based now, given the 
fact that the peer review is going on right now but the science 
experiment in the Gulf of Mexico is occurring in real time so 
that there can be a real capacity to have all questions asked 
and answered not months from now as part of a boring academic 
exercise sometime next year but right now when concern is at 
its highest.
    So again, I restate my request to you that you provide that 
information to independent scientists who are not part of your 
study so that there can be a fresh set of eyes and minds that 
are applied to it because the consequences are great if you are 
wrong. If you are wrong, the consequences could be great. So 
let us just err on the side of safety. Let us have that 
information be given to the rest of the scientific community 
given the way in which that record was put together.
    So we thank you, Dr. Lehr, and again, in no way do we want 
to say anything other than we thank you for the work which you 
have done thus far. It is an exceedingly difficult working 
environment. It is unprecedented what has occurred in the Gulf 
of Mexico. We have this hearing principally because the public 
has a right to know, that there should not be a 6-week period, 
a month-and-a-half period where Congress has not been working 
on this issue, given the fact that it is our responsibility to 
make sure that the public interest in all aspects is protected.
    So we thank you, and we ask you perhaps to make yourself 
available to return again to answer additional questions 
because this is something that obviously is going to affect the 
Gulf of Mexico for months and years to come. With the thanks of 
the committee, we appreciate your contribution.
    Before we hear from our next set of witnesses, for the 
record, the subcommittee invited the Louisiana Department of 
Wildlife and Fisheries to participate in this hearing. The 
Louisiana Department of Wildlife and Fisheries makes the 
decisions regarding opening or closing of fisheries in State 
waters affected by the spill and has been working in 
consultation with the FDA regarding opening and closing of 
fisheries. Although nobody from the department was able to 
attend, the Louisiana Department of Wildlife and Fisheries 
submitted a statement for the record which I ask unanimous 
consent to move into the record at this time. Without 
objection, so ordered.
    [The information was unavailable at the time of printing.]
    Mr. Markey. I would also like to move into the record a 
statement from the Center for Science in the Public Interest. 
Without objection, so ordered.
    [The information was unavailable at the time of printing.]
    Mr. Markey. We will now move to hear from our witnesses, 
and we ask those witnesses to please move up to the witness 
table.
    Welcome back to the Subcommittee on Energy and Environment. 
Let me begin by making a unanimous consent request that all 
members be allowed to submit statements for the record and any 
questions which they would like to submit to the witnesses who 
are testifying here today. Without objection, so ordered.
    Our next witness is Dr. Ian MacDonald. Dr. MacDonald is a 
Professor of Biological Oceanography at Florida State 
University. His research uses satellite imaging to locate 
natural oil releases on the ocean surface. We thank you for 
coming, Dr. MacDonald. Whenever you feel comfortable, please 
begin.

     STATEMENTS OF IAN MACDONALD, PROFESSOR, DEPARTMENT OF 
    OCEANOGRAPHY, FLORIDA STATE UNIVERSITY; DEAN BLANCHARD, 
PRESIDENT, DEAN BLANCHARD SEAFOOD, INC.; ACY COOPER, JR., VICE 
 PRESIDENT, LOUISIANA SEAFOOD ASSOCIATION; MIKE VOISIN, CHIEF 
 EXECUTIVE OFFICER, MOTIVATIT SEAFOOD, LLC; AND LISA SUATONI, 
  SENIOR SCIENTIST, OCEANS PROGRAM, NATURAL RESOURCES DEFENSE 
                            COUNCIL

                   STATEMENT OF IAN MACDONALD

    Mr. MacDonald. Well, I am a Professor of Oceanography at 
Florida State University. Today, however, I am speaking solely 
on my own findings, and I wanted to say before I embark on 
technical discussions that I have 30 years of professional and 
private experience traveling around, cruising on, diving to the 
bottom of the Gulf of Mexico, and I deeply and fiercely love 
this ocean and its people and I thank you for your exemplary 
service during this catastrophe.
    I would like to comment briefly with a critique on the NOAA 
oil budget report which we discussed earlier. I feel that this 
report was misleading, and although it presents science, it was 
done by very competent scientists without any citation to the 
scientific literature. Without the algorithms, without the 
formulas and the actual budget that are referred to, it is 
impossible for someone reading this report to check the numbers 
that are there, and we have concern about those numbers.
    So as I think you very ably demonstrated in your 
examination, we really can only account for 10 percent of the 
oil that was discharged, that 4.1 million barrels that was 
discharged through burning and skimming. The balance of the oil 
remained in the environment. There may have been some 10 
percent that evaporated into the atmosphere that is gone from 
the ocean but the balance is still in the ocean. The question 
is, how is it partitioned between the water column and the 
floating material that will have sunk to the bottom or become 
buried on the beaches, and this partitioning which was done or 
this separation into categories which was done by the oil 
budget is really pretty theoretical at this point. We need to 
check on that. There are findings that are coming out that I 
think will cause this into question.
    But let us just take this 26 percent, this 1.3 million 
barrels. As you say, this is five times the Exxon Valdez 
release. This oil has already degraded, has already evaporated 
and emulsified. It is going to be very resistant to further 
biodegradation. This oil is going to be in the environment for 
a long time. I think that the imprint of the BP release, the 
discharge, will be detectable in the Gulf of Mexico environment 
for the rest of my life, and for the record, I am 58 years old, 
so there is a lot of oil. It is not gone and it is not going 
away quickly.
    I would also like to comment on an aspect of the spill that 
hasn't received a lot of attention and that is the methane gas. 
All of the numbers about the release, the discharge have been 
presented in volumes of oil, barrels of oil. If, however, we 
calculate, we know that the Macondo field well was very rich in 
gas and we have good numbers on that from the Flow Rate 
Technical Group. If we take those numbers and we present all 
the discharge in terms of units of mass equivalents or barrel 
of oil equivalents, it turns out that the oil plus the gas is 
equal to 1.5 times the oil alone. In other words, if we 
conclude that there are 4.1 million barrels of oil released, 
the actual discharge in barrel of oil equivalents is in excess 
of 6 million barrels. Because this oil, this material was 
released at the bottom of the ocean, it transited the ocean. 
Some of it, much of it perhaps still remains in the ocean so I 
would contend that for the purposes of the Oil Pollution Act, 
this was a discharge and this total pollutant load should be 
included in our assessment of how far this spill went down.
    I would also like to comment on the so-called resilience of 
the Gulf of Mexico. Now, a fair reading of the report indicates 
that this 90 percent, this huge volume of oil represents a 
massive dose of hydrocarbons in the Gulf of Mexico ecosystem. 
There has been some talk about the resilience of the Gulf of 
Mexico. My concern, my first concern is not for a whole-scale 
die-off but for a depression, some decrease, 10 percent, 15 
percent of the productivity and the biodiversity of the Gulf of 
Mexico ecosystem. Now, this might be--if we had a 10 percent 
decrease, this might be very difficult to demonstrate 
scientifically. It might be even harder to prove in a court of 
law. Nonetheless, if we sustain this impact over many years, it 
would be a severe affect.
    My greatest concern, however, is that some of the damage 
will be so severe that we may have tipping point effects that 
will overwhelm the resilience of the ecosystem, and this 
unfortunately has been the case, has been the scientific result 
looking at Prince William Sound in the wake of the Exxon Valdez 
spill. We need to hope that this won't happen. We need to do 
more than hope. We need to watch very carefully, and I have 
drafted as part of my submission here a list of species that I 
think we should be watching closely. These include some of the 
big species, the shrimp, the tuna and so forth, but they also 
include more humble members of the ecosystem such as fiddler 
crabs, the Coquina clams that are so abundant on the beaches. 
We need to be watching these populations through time, not just 
next year but for years to come, because it may take several 
years to notice the impact. A healthy environment has to 
support the species that depend on the healthy environment. If 
we watch those species, we will know they go. Is my time up? 
OK.
    [The prepared statement of Mr. MacDonald follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Markey. Yes, it is, but you will have time during the 
question-and-answer period to elaborate.
    Our next witness is Mr. Dean Blanchard. He is the President 
and sole owner of Dean Blanchard Seafood located in Grand Isle, 
Louisiana. Dean Blanchard Seafood is the largest dockside 
shrimp broker in the United States and the third largest in the 
world. Thank you for coming, Mr. Blanchard. Whenever you feel 
ready, please begin.

                  STATEMENT OF DEAN BLANCHARD

    Mr. Blanchard. Yes. Thank you for having us, Chairman.
    I want to say, we visit your State regularly, and gosh, it 
reminds me of Grand Isle.
    We are here today to talk about seafood safety, and we have 
a few concerns, and basically I have taken a moment to outline 
a few of my major concerns as an independent seafood business 
owner of Grand Isle regarding the effects of the BP oil spill.
    If a seafood product is put onto the market and is later 
determined to have made the consumer ill because of oil and/or 
dispersant contamination, who will be determined to be the 
responsible party? That is one of our major concerns right now 
because we are having trouble getting product liability 
insurance. I have been responsible for moving, it is just a 
guess, but I believe in my lifetime about 300 million pounds of 
shrimp, and I have never seen anyone get sick. You know, we are 
born in this business. Pretty much everyone in the seafood 
business is born and raised in it. You don't just decide one 
day I am going to be a seafood business guy. So we have good 
people in our business and we know the shrimp, you know, and I 
am hoping that will keep the public safe. We are testing our 
shrimp. We are checking it. I won't put nothing on the market 
that I won't eat myself. I stayed about 2 weeks without eating 
shrimp, and I felt like I was going to die and I decided I was 
going to start eating it again because it was so good. But that 
is one of our major concerns is, who is going to be 
responsible. I have a feeling that if I get sued I am going to 
be the one paying the bill.
    Another concern we got, our commercial shrimpers and 
fishermen are hesitant to fuel up their boats, buy ice and oil 
and salt because they believe that the open waters will be 
closed once more, or that they will find oil-contaminated 
seafood which they know I will not buy and they are going to 
have to dispose of it. It is difficult for an out-of-work 
fisherman to pay for these expenses without the confidence in 
the government, who dictates the openings and closures, and 
without the confidence in BP's press releases which state that 
virtually all of the recoverable oil has been recovered.
    You know, if you go out shrimping right now and you watch 
to catch oil, they can go catch oil. But if you want to catch 
good shrimp, you can catch good shrimp also. So, you know, I 
told every fisherman, you know, when you bring me the product, 
it is going to be scrutinized 10 times more than it has ever 
been before, so if you think anything is wrong, don't bring it 
to me. I will not buy it. I will not take the chance of getting 
sued or getting someone sick. You know, the last thing I ever 
want is for somebody to say I got them sick or a pregnant 
woman, you know, that would be hard to live with, so we are 
taking extra precautions to make sure that doesn't happen.
    You know, we are having, like I said, a difficult time 
locating insurance companies who will sell us insurance, and 
that is--you know, what I am scared of is not somebody actually 
getting sick, I am scared of someone trying to make money off 
of this, you know. That is the scary part, you know.
    Basically in summary, we in the seafood industry have very 
little trust in the government, you know. When I try to sell 
seafood, I tell them, I say well, the government said they did 
thousands of tests and everything is all right, and they say is 
that the same government that said only 1,000 barrels a day was 
leaking out the well, and I say well, it is the same government 
but it is a different branch.
    So that is some of the problems we are having and we 
appreciate with the help of people like you that maybe we will 
get down to the bottom of it, but I firmly believe that all the 
seafood I have seen so far is safe. I eat seafood probably six, 
seven times a week. I haven't had any problems with the 
seafood. So we are hoping that the government is doing the 
right job and making sure everybody is safe and maybe we can 
all get through this one day. Thank you.
    [The prepared statement of Mr. Blanchard follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Markey. Thank you, Mr. Blanchard, very much, and thank 
you for being here today.
    Our next witness is Mr. Acy Cooper, Jr. He is a fisherman 
from Plaquemines Parish and the Vice President of the Louisiana 
Shrimpers Association. He is the owner of the commercial shrimp 
boat the Lacy K, and we thank you for coming, Mr. Cooper. 
Whenever you are ready, please begin.

                  STATEMENT OF ACY COOPER, JR.

    Mr. Cooper. I would just like to talk a little bit about 
the damages done to our community.
    This oil spill, we have oil on the bottom of our waterways. 
We have reports of numerous fish kills. We know the oil is 
there. NOAA keeps saying that the oil is not there. Everybody 
said it is not there. We know it is there. I worked in one part 
of this particular bay for 2 months and we wear hazmat suits, 
we wear gloves, we taped up. They said oil is not there. When 
they got rid of me the last day I was working for BP, I found 
oil is on the bottom. I reported it to the Coast Guard, 
reported it to BP, brought them up there, showed them it was 
there.
    This has catastrophic effects on our community, our 
industry, our way of life. We do not need to let this lay 
because BP is going to step out of here and they are trying to 
get out of here now. We need to make sure we stop on top of 
things because if we let them leave now, we are going to be in 
deep trouble. Everybody says it is over with. They want to 
paint a picture that in a perfect world it would be. Right now, 
as you have seen this morning, 90 percent of the oil is still 
there, and that is one thing we are definitely scared of. The 
places that we do have that is clean, we know it is clean, like 
they were just stating. We are worried about when it comes in 
tomorrow or the day after tomorrow that we can't fish there 
anymore.
    The main thing is that we monitor the fish areas that are 
clean. Let us work in the fish areas that are clean. Where it 
is not clean, we can just stay away from it. Our fishermen are 
not going to come in and sell anything that is bad. We want to 
make sure what we put on the market is good. That is one of the 
main things that we discussed. We have meetings on our own and 
we do discuss this.
    Now, we need to make sure that BP stays in place for as 
long as it needs to be because we see right now that they are 
trying to move out and they are trying to go. We don't need to 
let them leave now. Finish the job they started. They did it. 
They need to clean it up. Like Dean said, if we get somebody 
sick, it is going to come back on us. The process of having a 
dockside waiver saying that we caught them in open areas in the 
marsh, they are making us sign waivers that we caught them in 
open marsh. Now, who are we going to make responsible for that? 
Is BP going to step up and be responsible for what we have to 
do? I signed it for Dean. He signed it for the processors. Who 
signs for us? So we are going to wind up with the burden of 
having to take the brunt of this. We can't make any money.
    It opened on August 16, the season. I went out. Normally I 
would catch a couple thousand pounds to 10,000 pounds. I caught 
500 pounds of shrimp at $1.25. Those same shrimp last season 
was around $2, $2.25. They went down $1. Now, if I can't get 
the price for my shrimp and I can't catch them, how am I going 
to survive? I have been doing this for 35 years. My father is 
74 years old. He still does it. My sons do it. Hopefully their 
sons will do it, hopefully. I don't see any future in it. With 
the prices and everything that is going on now, we may not have 
a future. Who is going to be liable for that? BP needs to step 
up and make sure they pay us for what they have done, keep this 
industry going. Our docks can't afford to keep going. What 
happens if they go out? One link is broken in this chain and we 
lose our industry. This is something we have been doing all our 
lives. Who do we go to then?
    I just want to make sure they understand that we are not 
happy with what is going on right now. They said the oil is 
gone. It is not gone. It is on the bottom. We can take you and 
show you. I brought the Coast Guard, I brought BP and showed 
them. You stir the bottom up and oil comes up. So whoever said 
it is gone, as you heard today, they said 75 percent was gone 
before, 90 percent is still there and it is going to come into 
our shores eventually somewhere, if not in Louisiana, somewhere 
else. Thank you.
    [The prepared statement of Mr. Cooper follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Markey. Thank you, Mr. Cooper. And just so you know, 
the reason that we are having this hearing is that BP knows 
that we are not going away. We are going to stay on them until 
they do the job. We know that BP did not stand for Be Prepared. 
Right from the very first day when they said there was 1,000 
barrels per day all the way until today, they never had a plan 
put in place to deal with something like this, and we just 
can't allow them to believe that the coast is clear, that they 
can retreat without having to pay for everything that they are 
responsible for.
    Mr. Cooper. Let me say one more thing. You heard them 
talking earlier about 5-mile bumpers. Where I found the oil, 
the season was open in that area this last--the 16th. It was 
open where I found the oil at. And they are talking about 
giving a tradeoff, a tradeoff for the dispersants, and the only 
tradeoff that we feel they gave to is our industry because when 
you sink it like that, we can't see it coming in. Our shrimp 
and fish, they are all bottom feeders. That is where it went, 
to the bottom. So it is deeply concerning for us where it is 
out there coming in on our bottoms.
    Mr. Markey. Thank you, Mr. Cooper.
    Now we will hear from Mr. Mike Voisin. He is the Chief 
Executive Officer of Motivatit Seafood, and oyster processing 
plant in Houma, Louisiana, a family-owned business. The Voisin 
family has been involved in the seafood industry since 1770. 
Mr. Voisin also serves on the Louisiana Wildlife and Fisheries 
Commission, the Louisiana Oyster Dealers Association and the 
Louisiana Oyster Taskforce. We welcome you, Mr. Voisin.

                    STATEMENT OF MIKE VOISIN

    Mr. Voisin. Thank you, Mr. Chairman, and good afternoon. 
The opportunity to come before you is a pleasure today, and 
thank you for this opportunity.
    Mr. Markey. And may I also say that in Congress there are 
two places that everyone thinks has a very funny accent, and 
one of them is Louisiana and the other one is from Boston, so 
this is a gathering of those. The other 48 States, they all 
think they speak plain English but we know that our accents are 
the authentic ones, so welcome.
    Mr. Voisin. Thank you, Mr. Chairman.
    Our company has an oyster farm in south Louisiana that 
comprises about 10,000 acres of water bottoms. We produce 
anywhere from 45 to 75 million oysters annually, and on the 
bottom we always have 2- to 3-year classes of oysters or 135 to 
225 million oysters on the water bottom at any time.
    In addition to running my family business, you mentioned my 
relationship with the Wildlife and Fisheries Commission of 
Louisiana as a member. I am also past chairman of the National 
Fisheries Institute.
    Louisiana is second only to Alaska in total seafood 
landings. In 2008, our commercial fishermen harvested 1\1/4\ 
billion pounds of seafood, which represented nearly $660 
million in dockside value. Meanwhile, 3.2 million recreational 
fishermen along our shoes took to the water, completing a total 
of 24 million fishing trips.
    The Deepwater Horizon oil spill is clearly an ecological 
and human tragedy that will surely affect not only the fragile 
habitats where fish and shellfish are harvested, but the very 
core of the community that brings these iconic delicacies from 
the waters of the Gulf to the tables of America. That culture 
and those Americans need your support during these challenging 
times.
    The seafood community has been actively engaged with both 
state and federal officials as they closely monitor the Gulf 
waters and only now begin to reopen those waters. We have 
worked closely with NOAA, the Department of Wildlife and 
Fisheries, Department of Health and Hospitals and other groups 
including the Environmental Protection Agency as well.
    We strongly supported the precautionary closures at the 
outset of this tragic event in order to ensure consumers 
continue to have access to seafood maintained with the level of 
quality and safety expected in the Gulf of Mexico. And now, as 
we did then, we support regulators as they reopen those same 
waters and continue their ongoing efforts to protect consumers.
    We agree that closing harvest waters which could be exposed 
to oil was the best way to protect the public because this 
prevented potentially contaminated seafood from entering the 
marketplace. Closures made with the intent to ensure seafood 
was as safe as possible were balanced with not closing any 
fishing areas unnecessarily. And as a testament to that system, 
we know now that no contaminated product has made its way into 
the market.
    Waters are reopened only when oil from the spill is no 
longer present and the seafood samples from the area 
successfully pass chemical testing. Sensory analysis testing is 
a heavily established, verifiable and highly scientific way to 
detect contamination. That testing continues aggressively as 
well. In fact, FDA has collected 5,658 specimens, as well as 
NOAA, that all of these samples have been 100 to 1,000 times 
below the threshold levels for any margin of safety relating to 
any human health concern.
    The Gulf seafood community applauds the Administration for 
taking the lead on the coordination of a comprehensive multi-
government agency response and we appreciate the collaborative 
efforts of NOAA, FDA, EPA and the State authorities including 
the Louisiana Department of Health and Hospitals. We are 
pleased that the State agencies are working closely with the 
federal government and we are thoroughly confident that every 
necessary step is being taken to ensure the continued safety of 
seafood sourced from the Gulf. After thousands of tests, the 
public should not be concerned about the safety of Gulf 
seafood. We have all seen media reports raising questions about 
that same seafood, which stand in contrast to all the federal 
and State testing we have seen. It is absolutely critical to 
the Gulf seafood community that a consistent and precise 
message continues to be delivered to the consumers who may 
unnecessarily shy away from this otherwise very healthy 
product.
    The Gulf of Mexico has 600 square surface miles of water, 
and during the 100 days or so of this event, the Mississippi 
River carried 1,600,000,000 plus gallons of water into that 
Gulf of Mexico. We know it is 5,000 feet deep, probably more 
like 10,000 to 13,000 feet deep. There is a lot of water out 
there. We have corresponded with doctors, MDs, and we have 
spoken to scientists. We have educated ourselves and understand 
that the demonstrable risk from dispersants is negligible and 
we hope further studies will be able to help consumers better 
understand that challenge.
    I would like to thank you and the Administration for all 
the efforts that are you are putting forth to make sure that we 
continue to do the right things relating to this seafood 
concern. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Voisin follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Markey. Thank you, Mr. Voisin, very much, and we thank 
the members from the Louisiana delegation, Mr. Melancon and Mr. 
Scalise, for their work in helping to make sure that we keep BP 
accountable and the government accountable to ensure that the 
innocent victims of this continue to be protected.
    Our next witness is Dr. Lisa Suatoni. She is the Senior 
Scientist in the Oceans Program at the Natural Resources 
Defense Council. She earned her PhD in ecology and 
environmental evolutionary biology from Yale University. We 
welcome you, Dr. Suatoni.

                   STATEMENT OF LISA SUATONI

    Ms. Suatoni. Thank you. Thank you for this opportunity to 
testify.
    Mr. Chairman, recent communications by the federal 
government on the oil spill have been optimistic. We are 
hearing that pieces of the puzzle are falling together, that 
the picture looks better than many of us had feared and that we 
have turned the corner. However, previous experience from other 
oil spills tells us that we are only at the beginning stages of 
this event from an ecological perspective, that the story is 
necessarily complex and many unanswered questions remain.
    In my testimony today, I will focus on three recent actions 
from the federal government that have raised concerns. First, 
the concerns, the tradeoffs associated with the use of 
dispersants. As we heard from Dr. Anastas today, the EPA 
conducted recent toxicological studies on the dispersants 
Corexit and we heard that Corexit had equal toxicity to other 
dispersants, that Corexit had much lower toxicity than the oil 
itself and that the Corexit-oil mixture had about equal 
toxicity to the oil, at least to two test species. However, 
with the release of these findings, the federal government 
concluded that the picture is becoming clearer, that the use of 
Corexit was an important tool in this response. Well, it may be 
tempting to conclude that use of dispersants was a wise 
decision in this oil spill, we think that conclusion is 
premature. As you already mentioned today, we think it is 
unwise to form that conclusion on the basis of two 
toxicological studies and observations in the field that 
Corexit is at exceedingly low concentrations. As you pointed 
out, you raised many important additional questions today and 
there are additional ones too.
    For example, what proportion of the oil that would 
otherwise have ended up on the coast didn't because of the use 
of dispersants? Where is the chemically dispersed oil? Is it 
encountering vulnerable benthic ecosystems on the shallow shelf 
or in deep ocean canyons? Is the chemically dispersed oil more 
able to get into the food chain than the oil alone? Is it 
getting into the food chain? Is it possible for the dispersant 
to biomagnify in the food chain? These are all outstanding 
questions. It is clear that the use of chemical dispersants is 
a tradeoff but it is not at all clear that we understand what 
tradeoff we have made.
    On the remaining oil in the environment, we have already 
heard a critique from Dr. MacDonald about the federal oil 
budget, and NRDC agrees with him, the assertion that 75 percent 
of the oil is no longer in the environment is an 
overinterpretation of the data and misleading. Because of the 
uncertainty associated with the rate of biodegradation of the 
oil, we really don't know how much oil remains in the 
environment. This needs to be directly measured. If you do a 
more direct interpretation of the federal oil budget, it 
reveals that 50 percent of the oil may remain in the 
environment. That is over 100 million gallons, or nine times 
the Exxon Valdez spill. That is a lot of oil.
    In addition, the federal oil budget appears to be a 
preliminary budget that was perhaps prematurely released. It 
was released before peer review. It was released without any 
discussion of the precision associated with those estimates. It 
is a partial tally of the hydrocarbons in the environment. 
Again, as we have heard today, it didn't contain methane, which 
scientists believe comprised half of the total hydrocarbons 
that went into the environment. And it was a partial analysis 
of the fate of the oil. For example, it didn't provide 
estimates of how much oil went into an oil slick or what 
proportion of the oil made it to the coast or what proportion 
of the oil is now on the sea floor. As presented, the federal 
oil budget was a partial snapshot of the oil in time. It 
doesn't directly address where the oil was, where it is going 
and how long it will remain in the environment, and it of 
course didn't address the ecological impacts. To fully 
understand the risk of the remaining oil or the impacts to the 
environment, this picture needs to be filled out and the oil 
budget needs to be refined.
    Relating to the safety of seafood, recent statements from 
the federal government made today in fact assure Americans that 
the open fishing grounds and the seafood in the market have no 
oil in them and present no health hazard whatsoever. Again, 
many important questions remain. My colleague, Dr. Gina 
Solomon, who is in the health program at NRDC, highlights three 
primary concerns that we have.
    First, much of the data in the contamination of the Gulf 
seafood are not publicly available so scientists cannot 
independently review the findings. NOAA has released data on 
fewer than 100 of the samples out of thousands that they say 
they have, and only on finfish, not on shrimp. Data from the 
State waters has not yet been released. Second, the seafood 
monitoring that is currently being done may not be adequate in 
terms of sample size and in terms of failure to monitor heavy 
metals, which you discussed today, and the dispersants. Third, 
assumptions using the FDA risk assessment fail to adequately 
account for exposure to polycyclic aromatic hydrocarbons to 
vulnerable populations, mainly developing fetuses, young 
children, and subsistence fishing communities, and that is 
largely because of the assumptions you already raised about the 
weight of adult males.
    In conclusion, the Gulf oil disaster represents the largest 
oil spill in U.S. history. We understand that the government 
wants to turn the corner and wants to signal that the Gulf is 
on its way to recovery. However, the facts simply do not bear 
that out. This is still a huge amount of oil in the 
environment. No matter how you interpret the federal oil 
budget, everyone agrees with that. It does a disserve to the 
Gulf region and to the public at large to diminish the problem 
that this oil presents to the health of Americans and the 
ecosystems of the Gulf of Mexico. The government needs to take 
the time to do a careful study to assess the fate and the 
effects of this spill and greater transparency is warranted. In 
the end, we believe that this follow-through is the only thing 
that will keep this catastrophe from being such a big disaster.
    [The prepared statement of Ms. Suatoni follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Markey. Thank you, Doctor, very much.
    Now we will turn to questions from the committee, and I 
will begin with you, Dr. MacDonald.
    I think that there is a lot of concern about how far the 
oil and methane from the spill has spread in the Gulf, how long 
it will remain and what harm it could cause. I know that these 
questions are areas of active research for you and for the 
broader academic community. Can you give us a brief overview of 
what academic scientists are finding in that regard?
    Mr. MacDonald. Well, this week and today in fact we have 
seen the release of a number of careful studies, one by the 
University of South Florida reporting on results from a recent 
research cruise with the research ship Weather Bird, a careful 
study of the oil budget by a scientist at the University of 
Georgia in Athens, and today the release of a major paper 
published in Science by Richard Camilli and colleagues. These 
reports collectively show different aspects of the spread of 
the oil and its related compounds that raise major concerns. 
The Camilli report documents the--and this is the best science 
that I have seen yet out of this process. The Camilli report 
documents the spread of compounds called BTEX, and these are 
the polycyclic aromatic hydrocarbons, and the ones of greatest 
concerns, these are benzenes, xylene, toluene and so forth. 
These are the most toxic components of the oil, and they track 
a very large plume of this material spreading to the south and 
the southwest of the spill.
    Now, I will note that in that report, they document that 
some 6 to 7 percent--I believe those numbers are correct--of 
the BTEX released from the well, the total discharge was 
included in that plume. This plume is at 1,100 meters. If that 
BTEX is a tracer on the total amount of oil released and 
entrained into these deepwater layers, that suggests that we 
don't know very well what happened to the balance, and in fact, 
the upper layers of the ocean including the surface of the 
ocean may have received a bigger dose of oil than we are 
presently worried about.
    We do know from my work and other work that has been done 
that the oil spread over an area of many thousands of square 
kilometers, and as it degraded, as it emulsified and sank, it 
rained down particles of oil, and this oil became more 
concentrated as it reached the coast so we now have a very 
widespread amount of oil that is scattered in layers, and this 
is what the findings from the Weather Bird documented. They 
took core samples going towards Panama City and they found oil 
on the bottom everywhere. Now, just sampling with a core, that 
suggests that either you are very unlucky or there is a lot of 
oil on the bottom, and the Georgia study confirmed many of the 
points that have been made in this hearing.
    Mr. Markey. OK. Great. Thank you.
    While this hearing was ongoing, the Woods Hole 
Oceanographic Institute released a study, and it is a snapshot 
from the middle of June, and what they found was a plume of oil 
from the well at least 22 miles long, 1.2 miles wide and 650 
feet high at a depth of 3,000 feet below the surface in the 
Gulf, and contrary to government oil budget report that said 
dispersed oil is biodegrading quickly, Woods Hole scientists 
found that microbes are degrading the plume relatively slowly, 
in the words of Woods Hole. That means that the oil is 
persisting for longer periods than expected. They don't know 
how toxic it is or if it poses a threat, and unlike some other 
researchers, they did not find areas of severe oxygen 
depletion, that is dead zones. They explained this discrepancy 
because of their use of an older lab-based technique rather 
than the use of modern sensors which can give oxygen readings 
that are too low when the sensors are coated with oil. So I 
just wanted to put that on the record.
    Mr. Cooper, how many years have you been shrimping?
    Mr. Cooper. Thirty-five years myself.
    Mr. Markey. Now, have you been out shrimping recently?
    Mr. Cooper. Yes, sir, on the 16th of August it opened up 
and I went that day.
    Mr. Markey. Now, did you see anything different or unusual 
in terms of the waters or the shrimp?
    Mr. Cooper. Not in the area I went, which we didn't have a 
whole lot of concentration of oil come in, it was a clean area, 
so no, at that point I didn't. I just didn't have enough 
shrimp. It wasn't there.
    Mr. Markey. Dr. Suatoni, would you like to comment on that 
in terms of the long-term impact?
    Ms. Suatoni. Well, we are concerned primarily with regard 
to the shrimp and the presence of the subsurface oil, and that, 
as Mr. Cooper said, oil is present in open grounds and that 
there may be more exposure. The marine invertebrates do not 
process polycystic aromatic hydrocarbons as quickly as food 
fish so we think there needs to be special care taken with the 
sampling of invertebrates.
    Mr. Markey. Dr. MacDonald, would you like to comment?
    Mr. MacDonald. Well, I think that the survival of the Gulf 
seafood industry requires the survival of seafood, and we have 
to be concerned. I mean, this is anecdotal. This is one fishing 
trip and I am sure you have gone out before, Mr. Cooper, and 
not caught as many fish as you wanted to.
    Mr. Cooper. Correct.
    Mr. MacDonald. So this one event doesn't tell us the whole 
story. But the fishermen, however healthy the seafood is, if 
they can't catch it because there has been a lot of some year 
classes, then all of the protection and the vigilance of the 
FDA is not going to sustain the Gulf seafood industry because 
it won't be there. So that is my concern.
    Mr. Markey. Mr. Cooper, are you going to go out shrimping 
again soon?
    Mr. Cooper. Yes, sir.
    Mr. Markey. What is your plan right now?
    Mr. Cooper. When I get back home, I will be back in the 
water.
    Mr. Markey. OK. Great. Now, Mr. Cooper, are you convinced 
that there is no oil in the areas open to shrimping?
    Mr. Cooper. Like I told you earlier, one spot where I did 
find the oil was, they say a 5-mile bumper zone. It wasn't 5 
miles that one of the bays I did find oil in.
    Mr. Markey. Now, in your opinion, is there any way that 
NOAA or the FDA can be sure that there is no oil in the water 
where shrimping is taking place?
    Mr. Cooper. I found it the last day when I was working with 
BP over 2 months in the same area, and it just so happened, one 
of my last days that I worked, we found it. I called the Coast 
Guard and BP and had them come out there and I had to bring it 
to their attention. The Coast Guard wouldn't come. Finally, I 
caught one that was in the bay and brought him over there and 
showed him, so I went to a town hall meeting and I brought it 
before them and invited them all to come see what I found, and 
they did come, the commander of the Coast Guard and BP came 
with me and I did show them in this bay, disturb the bottom and 
the oil comes to the top, and they say it is unrecoverable oil 
but still yet this opened this bay up for trawling.
    Mr. Markey. Now, Mr. Blanchard, some have suggested that 
people raising concerns about the quality of seafood simply 
want to continue to collect checks from BP. Can you deal with 
that issue for us just so we can understand what is going on 
down in the Gulf in terms of the relationship between this 
program to pay the fishermen who need to be paid and again an 
incentive to get back out there as soon as you can, everything 
is OK. So how should we be viewing this tension?
    Mr. Blanchard. Well, I told BP from the very beginning that 
they was going about it the wrong way. What we asked them to do 
was to help the fishermen and give them an incentive to go back 
fishing. If they would have left the fishermen fish, even 
though they had to go further away from their home, even though 
they would have to go to different fishing grounds, well, pay 
them for that. Give them an incentive to go out. Then it would 
have kept the market going, you know. But BP took the approach 
that they were going to do a PR program and put all the 
shrimpers to work for them, but in my opinion, BP never tried 
to pick up the oil. They have never tried to pick up the oil. I 
have talked to hundreds of boats that said they found oil, 
contacted BP and BP told them not to try to pick it up and go 
the other way, and this has been going on for a hundred and 
some days. I have lived through this.
    Mr. Markey. Why do you think that is the attitude of BP?
    Mr. Blanchard. It was cheaper to sink it. Out of sight, out 
of mind and out of here. That is the approach BP took, you 
know.
    But as far as going back to seafood testing, all the 
seafood right now is probably being tested more than any other 
product in the world, you know. I don't believe beef or pork or 
any seafood in the world--we get seafood from foreign countries 
that personally wouldn't eat. It's probably being grown in a 
sewer, and the FDA checks 1 to 2 percent out of it, and out of 
the 1 to 2 percent they check, 40 percent to 60 percent is no 
good, it is rejected. So, you know, that is one thing I wanted 
to bring up. All the seafood right now is being tested probably 
more than any product in the world, so hopefully they are doing 
their job and they are doing it right.
    What I would like to see is for one time before I die is 
somebody that works for the government be held accountable for 
something. Whoever is testing it, whatever agency is testing 
it, they ought to come out and give us a paper and say we 
guarantee this product is good, and if something goes wrong, 
they will be held accountable, not us.
    Mr. Markey. Well, you know that is why we are having this 
hearing. You know that is what is happening here today. We are 
sending a very strong signal to those who are responsible 
that----
    Mr. Blanchard. Well, that is what I would like to see.
    Mr. Markey [continuing]. They are representing to the 
American people that this is safe.
    Mr. Blanchard. I think if they would be held accountable, 
people would have more trust in the government agencies. But, 
you know, there are certain government agencies that are 
responsible for this oil spill when nobody is being held 
accountable.
    Mr. Markey. Well, you know, we are going along beginning 
with the Minerals Management Service----
    Mr. Blanchard. That is what I would start with.
    Mr. Markey [continuing]. And there are a lot of people 
there who are going to be made accountable, and we are going to 
move through this entire process. We are not going away. We are 
going to make sure that all of the lessons that can be 
extracted from what happened are learned and implemented in 
order to protect the public.
    Mr. Cooper, in your testimony, you indicated that BP 
required you to wear a hazmat suit when you went out into the 
waters. How long ago was that?
    Mr. Cooper. Oh, 2 weeks ago.
    Mr. Markey. Now you are being told to head back out into 
the same waters without any additional protection. Is that 
correct?
    Mr. Cooper. And that is very troubling, yes, it is.
    Mr. Markey. Do you think that you are being asked to work 
in an unsafe environment?
    Mr. Cooper. Not necessarily. Some of the areas, they didn't 
have the oil, so I don't see in those areas that it is unsafe, 
but in some of the areas, yes, it is unsafe. If they are going 
to make us wear hazmat suits and tape up and take hazmat 
training, how can you send fishermen back out again? But some 
of the areas, yes, the oil never came, no, it is not there. 
Some of these guys had to take these jobs instead of fishing, 
and I know there is a big controversy in Louisiana right now. A 
bunch of people wants the fishermen to go back to work. We only 
have limited areas to fish. They want to put them back into the 
waters and make them go to work but then they are paying us 
lower prices, with high fuel prices. The price is not there. We 
don't have the area to work. So these guys have to do it. But 
the opening and closing of the seasons with wildlife and 
fisheries, they pretty much had to do what they had to do, and 
if it means going out there and working for BP to make a 
living, well, so be it. That is what they had to do.
    Mr. Markey. Now, in your testimony, you indicated a smaller 
than normal size catch this week. Have you noticed any other 
changes to the shrimp or to the fish, the color, the size, the 
spots, the smells?
    Mr. Cooper. Not in this area, no, sir. This area was a 
clean area.
    Mr. Markey. Thank you.
    Mr. Voisin, would you like to inject your thoughts at this 
point?
    Mr. Voisin. Thank you, Mr. Chairman. I just want to say 
that there are two small areas in south Louisiana that have 
been oiled, and that is the Barataria system where Mr. Cooper 
actually harvests and Mr. Blanchard has his dock, and then out 
at the mouth of the river, Pasalutra. We have 7,500 miles of 
shoreline in south Louisiana if you go in and out every bayou 
and every bay and lake. Only about 400 miles of those were 
oiled. It happens to significantly be where Mr. Blanchard and 
Mr. Cooper are located. Seafood from throughout Louisiana is 
safe. It is wholesome. And while there can be questions 
raised----
    Mr. Markey. You are saying that the seafood which is being 
sold is safe but there are many areas where if it was caught 
and sold it would not be safe. Is that what you are saying?
    Mr. Voisin. No, the seafood----
    Mr. Markey. You are saying all seafood caught anywhere off 
of the coastline of Louisiana is now safe? Is that what you are 
saying?
    Mr. Voisin. All the seafood caught off the coastline of 
Louisiana is now safe and that is put into the commercial 
market. Yes, sir. Eighty-seven percent of our State is 
currently open to the harvest of seafood. That occurred last 
week as a result of the intensive testing and protocols. And I 
know we have talked a lot about protocols today and about the 
dispersant testing and oil testing. Looking at the risk 
assessment based on the protocol, Mr. Chairman, I took a look 
at it, and in terms of oysters, oysters are consumed at about a 
quarter a pound per capita consumption. In the risk assessment, 
they used a number between 9 and 10 pounds per capita 
consumption on an annual basis, and they figured that exposure 
at 5 years, so they are exceeding the per capita consumption by 
40 times and they exposure by 5 years, and they are looking at 
the risk of illness at one in 10,000, which is traditionally 
looked at as one in either 100,000 or one in a million, so that 
is being magnified significantly, and we are meeting by 100 to 
1,000 fold all of the criteria in the reopening protocols.
    Mr. Markey. So I just wanted to again clarify. You are not 
represented that in the areas, the federal waters that are now 
closed, that it is safe to eat the fish that is caught in those 
areas. You are not saying that?
    Mr. Voisin. I did not say that, sir. In the open waters 
where fish are being harvested and commercially sold, I would 
feed it to my kids, my wife, and we do eat it often, yes, sir.
    Mr. Markey. But in those other areas, you would not feed 
that fish to your family, in the waters are now closed?
    Mr. Voisin. In the waters that are closed, we can't. I 
mean, we can't harvest from those----
    Mr. Markey. That is what I am saying.
    Mr. Voisin. So the bottom line is, that as they do the 
reopening and go through the protocol, absolutely I would feed 
that to my family.
    Mr. Markey. Let me get back to you, Mr. Cooper. Can you 
give us a comment? And then you, Mr. Blanchard.
    Mr. Cooper. Would I eat the shrimp? We have been eating 
them. I have been eating them. Not in the areas that are 
closed, no, I haven't eaten them, but the ones I caught, I did 
eat. I will eat them.
    Mr. Markey. Mr. Blanchard.
    Mr. Blanchard. I definitely eat them. I don't think there 
is any difference on what is open and what is closed.
    Mr. Markey. OK. Great. Thank you.
    Dr. MacDonald, could you comment here, and divide the 
question here first in terms of what you believe is safe and 
what is not safe and how the American people should be viewing 
this.
    Mr. MacDonald. Well, I would certainly eat them too, and 
perhaps I can have the occasion sometime. I will say that my 
concern remains the productivity, not the safety. I think that 
we have to have a productive Gulf, and the 350-mile statistic 
is heartening, that it could have been worse. But as you move 
offshore, you get a lot of areas that have got oil on the 
bottom, you know, further out, and as you go to the east, we 
see a lot of oil off Mississippi, Alabama and Florida, my 
State. In those areas when people go offshore and take samples, 
they are finding this buried oil and they are finding this 
buried oil in the beaches and they are finding this oil in the 
marshes, and that 350 miles did get a lot, and the edges of 
these marshes where the marsh grasses were oiled, my concern is 
that, you know, if it dies back 10 percent or 5 percent, that 
opens up, that dilates these channels. It makes them wider. 
That means the flow of water through is greater. That means the 
loss of wetland is greater. We have a tremendous amount of work 
to do to restore the Gulf of Mexico. We had a lot to do before 
all this and now we have a whole bunch more.
    So my concern is the ecosystem and the productivity. I 
believe in the fishermen and the FDA and protecting our safety.
    Mr. Markey. Dr. Suatoni, you have heard the comments on 
this question. Can you add yours as well?
    Ms. Suatoni. I would like to emphasize, build on what Dr. 
MacDonald said, but emphasize that long-term monitoring is 
imperative. What we learned from the Exxon Valdez spill was 
that oil that gets into the coast and into low-oxygen zone 
stays toxic in its kind of full toxic form for decades, and any 
time it gets disturbed or it rains, it can seep into the 
environment, and these near-coastal fisheries, I think it is 
important that they continue to monitor for the exposure to 
polycyclic aromatic hydrocarbons and metals over the long term.
    Mr. Markey. Can I ask this, Dr. Suatoni? Was there anything 
that was of concern to you that you heard on the opening panel 
from the government officials? What is it that stuck out that 
you think needs more attention?
    Ms. Suatoni. A few things stuck out. One was that they are 
only now developing tests to examine whether or not dispersants 
bioaccumulate. That seems to be something that we should have 
known since dispersants are a common tool in oil spill 
response. Another thing that you know we are concerned about is 
that the risk assessment used by the FDA is not adequately 
conservative for specific vulnerable populations. It was 
reassuring to hear that they are open to reconsidering that 
margin of safety. And I would say with regards to seafood, 
those were the two primary concerns.
    Mr. Markey. Was there anything of concern, Mr. Voisin, that 
you heard in the opening testimony that you would like us to 
continue to focus on?
    Mr. Voisin. Thank you, Mr. Chairman, and I would say that I 
stated earlier in response to Dr. Suatoni that I feel that the 
risk assessment that deals with the protocol for reopening 
basically are much more conservative than there should be any 
concern related to. I think they have gone way beyond what 
would be conservative to the nth degree, and I described that a 
moment ago in my answer to you.
    Mr. Markey. Even though you heard concerns about heavy 
metals and other issues, that is not of concern to you?
    Mr. Voisin. Having spent countless hours talking to PhDs as 
well as doctors relating to this and the metabolization of all 
of these things through finfish and shellfish, I personally 
think that there is no concern relating to those, although 
there is a concern and we should be concerned----
    Mr. Markey. Even though there have never been any studies 
on this subject, you still have no concern?
    Mr. Voisin. I personally do not, no, sir, given the----
    Mr. Markey. Do you have concerns, Mr. MacDonald?
    Mr. MacDonald. Regarding the government report?
    Mr. Markey. About any aspect of this including the testing 
for heavy metals and the other issues that seem to still be 
unresolved.
    Mr. MacDonald. Yes. My concern is for the coastal and 
marine ecosystem of the Gulf of Mexico. I am concerned that I 
have not yet heard from NOAA their plan for monitoring the 
continued health of this ecosystem and I think that when we 
look at the oil spill budget, it is unmistakable that an 
enormous dose of oil was given and really putting it simply, 
Mother Nature is being made to clean up our big mess, and I 
think Mother Nature suffers for it. I think that we need to 
endow a permanent fund for the restoration, the understanding 
and the sustenance of the Gulf of Mexico coastal and marine 
ecosystem in perpetuity, and I don't hear that coming from NOAA 
and I would like to hear that.
    Mr. Markey. Great.
    Mr. Blanchard, Mr. Cooper, Mr. Voisin, everyone wants the 
Gulf seafood industry to rebound from the BP disaster. Your 
industry did not cause this mess. Your industry, your business 
and livelihoods were harmed by the spill. What would each of 
you ask the federal government to do to help establish the 
safety of Gulf seafood and to help reassure the consuming 
public about the safety of Gulf seafood? You heard the 
questions that I posed to the government panel that appeared 
here earlier about the need for additional tests to be done to 
help address some of the issues that have not yet been 
definitely addressed such as the metabolites of the oil, the 
effect of dispersants, heavy metals and long-term impacts that 
this disaster could have on the quality and productivity of 
seafood in the Gulf. Do you agree that those should be 
priorities and what other issues would you like the government 
to address?
    Mr. Blanchard. Well, what I didn't like what I heard about 
the government, it looked like they were just checking the open 
places. If it would be me, I would go to the worst place and 
check that first and then see what I am looking at, you know. 
It looked like every time you listened to the government, they 
would say we just checked the open places. Well, why don't we 
check the closed place and see why it is closed, you know? 
Nobody seems to be checking that. And, you know, we have been 
severely harmed by this. I call them bad people, BP. You know, 
since this happened in this 100-some days, I got my secretary 
to look at the bills we paid. We paid $488,000 in bills, and I 
received $165,000 in payments from BP, and, you know, it 
reminds me, I heard the President said that he wasn't going to 
let our cash flow be interrupted, but if I don't have $323,000 
to pay my bills, I am out of business. You know, why is nobody 
holding BP accountable to come in and make it right what they 
have done to us?
    Mr. Markey. Well, I will tell you one thing. This committee 
wants to work with you, Mr. Blanchard. We want to make sure 
that BP stands for ``bills paid.''
    Mr. Blanchard. Yes, that sounds better.
    Mr. Markey. And that includes your bills. So let us work 
together on that and make sure your bills are paid but other 
people's bills as well. Thank you.
    Mr. Blanchard. Thank you very much.
    Mr. Markey. Mr. Cooper?
    Mr. Cooper. Just to make sure they keep long-term testing 
and they just don't forget about it, and one other issue as far 
as what is going on in the Gulf now with the Vessel of 
Opportunity. They are trying to take the money that we made 
working with BP off our claims, and that is not fair for the 
fishermen that went out there and did the job. We were cleaning 
their mess, and now they are going to hold us, our claims 
towards that money, and that is not fair for what we just did. 
We went out there. We put our lives on the line. We cleaned 
their mess up and now they are going to take it against our 
claims, and that is totally wrong. For BP to even think about 
doing something like this is uncalled for because we did a job 
and we expect to get paid for the job that we did.
    Mr. Markey. Mr. Voisin.
    Mr. Voisin. Thank you, Mr. Chairman. I believe that long-
term testing is critical to the Gulf and the survival of the 
Gulf. I believe that the State of Louisiana--I know that the 
State of Louisiana has requested $457 million from BP for a 20-
year testing program. We have not approved it yet but it is 
needed to continue to monitor the health of our species, the 
viability of its reproductive cycles.
    But more importantly, one of our great challenges is the 
brand of the Gulf of Mexico. The brand of Gulf seafood has 
taken the greatest hit in the history of my seven generations 
of family that have plied the waters of south Louisiana. People 
need to understand there may be questions but there are no 
questions about what is in the market today, that there may be 
questions about fishing areas that are closed, and we should 
ask those questions, but that product that is in the market 
today is wholesome and safe based on tremendously conservative 
science and we need to convince those American people. 
Customers at restaurants are now instead of ordering oysters on 
the half shell, very close to my heart, shrimp cocktails, they 
are saying instead of having that as an appetizer, I will have 
chicken wings, and instead of having that grouper as my main 
course, I will have a steak. We need to overcome that. A 
hundred-plus days of oil gushing in the bottom right-hand 
corner of the TV screen has branded us as something other than 
we are. We have a challenge. We will meet that challenge.
    However, the challenge is in a very small part of the whole 
Gulf of Mexico. We need to look at the whole. It is 200 million 
gallons of oil that has escaped from this situation. We need to 
deal with it. We are blessed in the Gulf of Mexico with having 
the microbes that will eat oil. That was not the case in 
relationship to the Valdez incident where they don't have the 
warm water. We are cursed with that warm water and that warm 
water as well.
    Mr. Markey. Would you like to see more testing in the areas 
that have the heaviest concentration of oil right now? Would 
you like to see that implemented now so that we will have that 
information in the long term going forward, Mr. Voisin?
    Mr. Voisin. I think it is happening, Representative Markey. 
I believe that that is happening. Could more--more is better. I 
think NOAA----
    Mr. Markey. We heard on the opening panel that there was no 
intensive program to do that right now. You would like to see 
that kind of intensive program right now?
    Mr. Voisin. I would support that, and I have been on 
conference calls with NOAA where they have reported they are 
doing testing in the closed areas. I have been on conference 
calls with the FDA as well. Now, that is what they have 
indicated on those conference calls, that they have done 
testing of seafood products in those areas. They have done oil 
plume testing and they have indicated that they are continuing 
to do that. Today, I forget the guy from NOAA----
    Mr. Markey. So you want them right now to be testing the 
fish inside of the closed areas? You want that to happen?
    Mr. Voisin. I believe, Mr. Markey, they are. Yes, I do want 
it.
    Mr. Markey. But if they are not doing it right now, you 
believe it is important for them to test the fish inside of the 
most oiled areas right now?
    Mr. Voisin. Absolutely, yes, sir.
    Mr. Markey. Absolutely?
    Mr. Voisin. Absolutely.
    Mr. Markey. OK. Great. That helps us a lot.
    So let us do this. Why don't we ask each one of you to give 
us your closing thoughts in reverse order of the opening 
statements so that we have a sense of what it is that you want 
us to retain, to focus on, as we are going forward in the 
Congressional oversight of this greatest of all environmental 
calamities. So we will begin with you, Dr. Suatoni.
    Ms. Suatoni. Thank you. NRDC is concerned with the recent 
tone of the communications and analyses coming out of the 
federal government. There is a desire to rush to judgment, to 
turn the corner and accelerate the analysis of the impacts the 
oil has had on the ecosystem, and it is of great concern. 
According to the Oil Pollution Act, the federal government is 
required to fully and fairly assess the impacts of the oil 
spill, and we hope that they take the time and do the necessary 
comprehensive study that is required to get that done.
    Mr. Markey. Thank you.
    Mr. Voisin.
    Mr. Voisin. Thank you, Mr. Chairman. The Gulf of Mexico 
States, the State of Louisiana that I live in, have been 
challenged in the last 5 years by five major events, this spill 
being the most recent significant event. We will be scarred but 
we will not be broken as a result of this. The seafood 
community is a viable community. My family left France under 
exile orders in the 1770s, went to Canada and was kicked out of 
Canada. So far we have not been kicked out of Louisiana and 
hopefully that won't occur. We will be resilient.
    You know, people aren't really interested necessarily in 
the rough seas that you have but whether or not you bring the 
ship in, and we are going to be about, and I hope the federal 
government continues its effort and doubles if appropriate and 
needed to bring that ship in and that is safe seafood of clean 
and healthy Gulf Coast. We will have scars from this just like 
I do from different accidents and challenges in my life but I 
am viable. The Gulf is a viable place to live. The seafood is 
wholesome and safe. It is harvested from the Gulf of Mexico and 
we want Americans to know that.
    Mr. Markey. Thank you, Mr. Voisin.
    Mr. Cooper.
    Mr. Cooper. Long-term testing on the oil, testing on the 
Corexit and also testing on our harvest and whether it is has 
been depleted or not, a stock assessment to see what is 
happening to our fisheries because the last season that just 
opened, it really opened your eyes and said what is going to 
happen, so that is some of the things that we would like to 
see, testing on the Corexit for sure, no doubt, and the oil for 
long term.
    Mr. Markey. Great. Thank you.
    Mr. Blanchard.
    Mr. Blanchard. Yes. Thank you. Well, basically for 28 years 
of my life I have had a product that has always been known as 
the best because it was the best, and I would just like the 
perception of the American public to know it is the best again, 
you know. You know, in our business, we don't work 9 to 5, we 
work 5 to 9, you know. We work 7 days a week. It is my life. I 
guess I will say it like Tony Hayward: I pretty much want my 
life back. You know, I want my life back. They took everything 
that I worked for all these years and one company doesn't know 
what they are doing or cut too many corners and put me out of 
business, I mean, just ruined my whole life, and nobody is 
being held responsible but me, and I didn't do anything wrong. 
I mean, I am just so confused. I go to work like I always do. I 
walk around in circles, don't know what to do. I mean, until it 
happens to you, you know, until you live through what we are 
living through, you know, it just--I don't know what is going 
to happen, you know. Every night I go to sleep, I can't sleep. 
I lay down in my bed. I know how many squares I got on the 
ceiling, you know.
    You know, I just hope that the government makes BP clean 
everything up and everything returns back to normal and the 
American public has confidence that the seafood that we are 
going to buy, we are not going to sell them anything I wouldn't 
eat myself, and the last thing we want to do is get anybody 
sick and we will do the best that we can and make sure 
everything is all right. Thank you.
    Mr. Markey. Thank you, Mr. Blanchard.
    And to you and Mr. Cooper, we thank you for coming here 
today. We know that you are individuals who have a tremendous 
amount at stake here, and just so you know, if at any point 
tomorrow, next week, next month, that you can just dial our 
number here on the committee to help you personally with your 
own family situations as you are going forward, and we will 
give you the number to call as soon as this hearing is done 
just so that you know that there is someone who will be behind 
you.
    Mr. Cooper. Thank you very much.
    Mr. Markey. It takes a lot of courage for you guys to be 
here today and we appreciate that.
    Dr. MacDonald.
    Mr. MacDonald. BP is going to have to pay a fine, Mr. 
Chairman, a big fine, and my concern is that that fine will be 
dedicated to restoring the Gulf of Mexico, not disappear into a 
treasury somewhere, and I hope that the houses of Congress can 
work together and the parties can work together to guarantee 
that the money that is paid here goes into permanent 
restoration projects. I am talking about restoring marshes. I 
am talking about marine protected areas where they are needed. 
I am talking about better enforcement of coastal runoff. Those 
are all things that have to happen to make our Gulf whole 
again. That is what we all want. If you all will do that, you 
will have massive support from the people of the Gulf of 
Mexico. Thank you very much.
    Mr. Markey. Thank you, Dr. MacDonald, very much. And I 
would also like to add, Dr. MacDonald, that the House of 
Representatives just 3 weeks ago did adopt one of your 
recommendations to the oil spill response bill that we passed 
on the House Floor to create a new trust fund for oceans so 
that funds raised from drilling in our oceans will also go 
towards protecting and improving our oceans. The Senate has 
said that they will take up the legislation when they return in 
September. That is always problematic, dealing with the Senate, 
but we did in the House of Representatives take your 
recommendation and implement it, and hopefully the same will be 
true in the Senate so that it can go to President Obama's desk.
    What we have learned today is that the oil is not gone. The 
oil remaining in the Gulf waters or washed up on the floor is 
equivalent to 10 Exxon Valdez-size spills and could be much 
more. Most of the Gulf has been reopened to fishing but the 
industry is not in the clear. Long-term impacts on stocks 
remain unknown. If one contaminated catch makes it to market 
and makes people sick, then the reputation and the credibility 
of one of America's most important fisheries will be in 
jeopardy.
    So we must engage this issue with continued caution and 
vigilance is necessary. We have seen some premature 
celebration. Dispersed oil is not the same as oil which has 
disappeared. Data, formulas, algorithms need to be made public 
so that independent scientists can verify the conclusions that 
are now shaping the debate on what to do now. We need to test 
the fishing stocks in the closed fishing areas now so that we 
understand what is going on now. That will help us in the 
future to protect the fishermen, to protect the consumers of 
fish in our country, but we must spend the money now so that in 
the future there are no questions that are unexamined, that we 
ensure that the compensation is given to those who will need it 
for as long as possible until we make everything as safe as is 
possible. All of that is in my opinion going to be something 
that this committee and the American people will need to be 
vigilant to ensure is put in place so that the people in the 
Gulf of Mexico at the end of the day are made completely whole.
    BP in my opinion will try to walk away as fast as they can. 
BP lowballed the size of the spill in the first week saying it 
was 1,000 barrels. Then they said it was 5,000 barrels. They 
knew in the first week that it was a huge spill. It turns out 
to be between 53,000 and 63,000 barrels per day. That is not 
1,000 barrels. That challenged the level of response in those 
first weeks, in those first months because of the misleading 
information. People were less vigilant than they would have 
been. The response was less intense than it would have been if 
we understood the magnitude. We must continue that level of 
vigilance. We must assume that we need to use all of our 
resources to understand what is going on right now so that in 
the future there can be the proper protections which are put in 
place and that the proper compensation is given to all of those 
whose lives have been adversely affected by what has happened.
    So while BP might be spending tens of millions of dollars 
on their television commercials saying that they are on the 
job, even today we identified many questions which have yet to 
be answered in a satisfactory fashion and we need to make sure 
that they are for the long-term wellbeing of the residents of 
the Gulf.
    We thank you all for being here today and we hope to be 
able to stay in close contact with you. Thank you.
    [Whereupon, at 3:05 p.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
